<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                       WEDNESDAY, APRIL 14, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:34 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Tom Harkin (chairman) presiding.
    Present: Senators Harkin, Landrieu, Reed, Pryor, Cochran, 
Shelby, and Alexander.

                        DEPARTMENT OF EDUCATION

                        Office of the Secretary

STATEMENT OF HON. ARNE DUNCAN, SECRETARY

                OPENING STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin. Good morning. The Senate Appropriations 
Subcommittee on Labor, Health and Human Services, Education, 
and Related Agencies will now come to order.
    Secretary Duncan, welcome back to the subcommittee. You and 
I have had many occasions to talk recently, both here and in my 
home State, about the reauthorization of the Elementary and 
Secondary Education Act (ESEA).
    As you know, we are in the process of holding several 
reauthorization hearings in the Health, Education, Labor and 
Pensions (HELP) Committee--not in this subcommittee, in the 
HELP Committee--and I share your commitment to completing that 
work this year.
    But today, we are here to talk specifically about funding. 
This is the Appropriations Committee. When it comes to 
resources, it is a time of both great promise and great peril. 
While the books on fiscal year 2010 won't be closed for another 
6 months, we can already safely predict that the Federal 
Government will spend far more money on education this year 
than in any other year in history.
    Between the regular 2010 appropriations bill and last 
year's American Recovery and Reinvestment Act (ARRA), the 
Education Department will provide more than $100 billion to 
States, districts, and higher education programs across the 
country this year. The State Fiscal Stabilization Fund (SFSF) 
in particular has been one of the great success stories of the 
ARRA. That funding is currently supporting more than 300,000 
education jobs across the country and certainly helped to 
mitigate the effects of the recession.

               STUDENT AID AND FISCAL RESPONSIBILITY ACT

    Last month, we also celebrated the passage of the Student 
Aid and Fiscal Responsibility Act. This landmark legislation 
eliminated wasteful corporate subsidies in the Federal student 
loan program and strengthened the Pell Grant program.

           FISCAL YEAR 2011 BUDGET REQUEST INCREASE OVER 2010

    The President's proposed education budget for fiscal year 
2011 also holds promise. As we all know, the President's budget 
holds the line on nonsecurity-related spending overall in 
fiscal year 2011, but the President pledged to use a scalpel 
and not an ax to achieve the freeze, and the Department of 
Education is one of the Federal agencies that would receive an 
increase of 7.5 percent more than in fiscal year 2010.

                           EDUCATION LAYOFFS

    Despite these positive developments for Federal funding of 
education, there are many danger signs. That is because the 
bottom has fallen out for State and local funding in many 
communities across the country, just as the funding for the 
SFSF begins to wind down in September of this year. Every day 
brings more reports about a massive wave of layoffs that could 
soon strike school districts and institutions of higher 
education.
    Based on estimates we are seeing so far, the number of pink 
slips for educators could easily top 100,000 this fall. Job 
cuts of this magnitude would, of course, have a devastating 
impact on families across the country and could stall the 
Nation's economic recovery. But they would also take a terrible 
toll on our education system.
    Large numbers of layoffs mean bigger class sizes, fewer 
program offerings, less time for students to learn in school. 
It is hard to see how you can get this kind of education reform 
that you, Mr. Secretary, and Senators on this subcommittee want 
to achieve if schools are cutting their instructional time.

                    KEEP OUR EDUCATORS WORKING BILL

    That is why later today I will introduce a bill--the Keep 
Our Educators Working Act. This bill will create a $23 billion 
education jobs fund that will provide money to every State for 
the specific purpose of hiring or retaining school employees 
next year--teachers, principals, librarians, counselors, 
custodians, and so on.
    And we must act soon. We must act soon. As I said, the 
money that we had in the ARRA, that was for 2 years, expires 
September 30 of this year. We know that there are pink slips 
already going out, maybe as many as 100,000 or more.
    But right now, we have to act because State departments of 
education and local school boards are already making their 
decisions. They are making their decisions this month in April 
and in May about what they have to do next year. This is not 
something that we can fix in August. We have to fix it now. And 
that is why I will do everything I can to bring up on the floor 
of the Senate as soon as possible this $23 billion funding 
bill.
    Now, why is it $23 billion? Well, it is about 50 percent of 
what was in the ARRA. The ARRA provided for 2 years. We are 
just looking at this as a 1-year shot for next year, and so it 
is about 50 percent of what we had in the ARRA.
    So I just say to you, Mr. Secretary, we are going to do 
everything we can, and I am going to ask for your help and the 
President's help in getting this done. As I said, time is of 
the essence here.

                          PELL GRANT SHORTFALL

    Now, another danger on the horizon is the Pell shortfall. 
Again, during tough economic times, more students and more 
financially needy students seek a higher education. That can 
lead to a temporary funding shortfall in the Pell program. And 
one of the relatively unheralded accomplishments of the student 
reconciliation bill was the inclusion of significant funding to 
address that shortfall.
    I want to personally thank you publicly, Mr. Secretary, for 
working so hard with us to provide those funds. But we are 
still about $5.7 billion short in the Pell Grant program. If we 
don't find a way to make up the difference, every program in 
our appropriations bill and even programs in other agencies 
could suffer.
    So I am hoping we can continue to work with the 
administration to fight for the rest of the Pell funding in the 
upcoming spending bill that we will be reporting out of this 
subcommittee. And so, we will talk more about those issues 
soon, but I first want to turn to Senator Cochran for any 
opening remarks that he would like to offer.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much for 
convening this hearing when we review the observations and 
statement of the distinguished Secretary of Education.
    The President has submitted a budget request to the 
Congress, and it is our obligation to review the request and 
consider the opinions of those who are involved in education 
and who have responsibilities for administering the Federal 
programs supporting education in our country. So it is a very 
important responsibility, and this subcommittee is going to 
work hard to try to make sure that we provide the funding that 
is needed to help ensure that our students throughout the 
country have opportunities to learn and prosper.
    And that is the purpose of our hearing today, to get an 
overview of the budget and to make sure that we are going to do 
the right thing in supporting these activities administered by 
Secretary Duncan and his able staff members.
    But you know we really owe a great deal of thanks to the 
teachers and the administrators throughout the country who 
really are at the point where the action occurs and where the 
responsibilities are discharged that make a big difference in 
the lives of our students. So, with that in mind, we are happy 
to have you before the subcommittee, Mr. Secretary, and we 
invite you to proceed to make whatever comments you think will 
be helpful to our understanding of the budget request.
    Senator Harkin. Thank you. Thank you very much, Senator 
Cochran.
    Arne Duncan became the ninth Secretary of the U.S. 
Department of Education on January 20, 2009. Before his 
appointment, Secretary Duncan served as the chief executive 
officer of the Chicago Public Schools. Before serving in 
Chicago, he ran the Ariel Education Initiative, which covered 
college costs for a group of inner-city youth, and was 
instrumental in starting a new public elementary school which 
ranks among the top schools in Chicago.
    Secretary Duncan, a graduate of Harvard University, welcome 
again to the subcommittee. And Mr. Secretary, your statement 
will be made a part of the record in its entirety, and please 
proceed as you so desire.

                 SUMMARY STATEMENT OF HON. ARNE DUNCAN

    Secretary Duncan. Thank you, Mr. Chairman, Vice Chairman 
Cochran, members of the subcommittee.

          STATE AND LOCAL LEVEL EDUCATION CUTBACKS AND LAYOFFS

    I plan to begin today by talking about education reform 
because there is a lot of good news to report, but before I do, 
I want to talk about education jobs. We are gravely concerned 
that the kind of State and local budget threats our schools 
face today will put our hard-earned reforms at risk.
    Every day, every single day brings media reports of 
layoffs, program cuts, class time reductions, and class size 
increases. None of this is good for children. Here is just a 
sample in some of your States.
    Mr. Chairman, you and I recently visited schools in Iowa, 
which just announced 1,500 layoffs, half of them teachers. In 
Ames, they are reducing full-day kindergarten to half day and 
delaying textbook purchases.
    In my home State of Illinois, they are looking at cutting 
20,000 teaching jobs. In California and New York, they have 
also announced more than 20,000 job cuts each. I think the 
superintendent of Los Angeles is testifying before this 
committee later today.
    Schools in Jackson, Mississippi, are increasing class size, 
while public colleges in neighboring Louisiana are canceling 
summer classes in the face of $300 million in budget cuts over 
the next 2 years.
    I recently read there are some schools in Kansas that have 
gone to a 4-day school week, and Hawaii began Friday furloughs 
earlier this year. New Jersey surveyed more than 300 school 
districts, and two-thirds are cutting sports, bands, and clubs. 
Many are also dropping after-school summer programs.
    Charlotte, North Carolina, will cut 600 teachers next year. 
Appleton, Wisconsin, is losing 50 positions, mostly teachers, 
while one district in Washington State is cutting 10 percent of 
its teaching workforce.
    In a survey of school administrators, one-third of them say 
they may have to cut summer school despite compelling research 
showing that summer learning loss amongst low-income students 
is a significant contributor to the achievement gap.

           IMPACT OF LAYOFFS AND CUTBACKS ON OVERALL ECONOMY

    While there is no hard number yet for the entire country, 
we think the State budget cuts could imperil anywhere from 
100,000 to 300,000 education jobs. That not only creates 
hardships for hard-working educators who lose their jobs and 
the children they teach, but the damage ripples through the 
economy as a whole.
    The layoffs would create a new drag on the economy when, 
despite the recent encouraging jobs reports, we still have a 
long way to go. Literally, tens of millions of students will 
experience these budget cuts in one way or another. Moreover, 
schools, districts, and States that are working so hard to 
improve will see their reforms undermined by these budget 
problems.

                   COMMITMENT TO IMPROVING EDUCATION

    The financial crisis facing public education is coming at 
an especially crucial moment for America. We are more focused 
than ever before on the importance of education to our economy 
and more committed than ever before to challenging ourselves to 
get better.
    There is a broad consensus that we must invest at every 
level--from early childhood through college--to help the next 
generation succeed and compete in our global economy. There is 
a deep commitment from stakeholders across the spectrum that 
education is one issue that absolutely can bring us together. 
And at every level of our education system, there is 
groundbreaking work underway to improve the way we teach and 
learn.

                      STATE EDUCATIONAL STANDARDS

    Forty-eight States are working together to raise education 
standards across the country because they understand we must 
better prepare our children for college and careers. No more 
dumbing down standards due to political pressure. No more lying 
to children.
    Let me be clear. This is a State-led movement. These are 
not Federal standards.

                      RACE TO THE TOP COMPETITION

    States are also preparing for phase two of the Race to the 
Top competition. This $4 billion program, which represents less 
than 1 percent of K-12 education funding nationally, has 
prompted States and stakeholders to sit down together and have 
the kind of difficult, but necessary conversations that have 
never happened before.
    The results, in a word, are stunning, even before money has 
gone out the door. Legal barriers to reform have been 
eliminated, progressive labor agreements have been forged, and 
new partnerships have emerged around bold and far-reaching 
plans. By one count, 26 States have passed laws to strengthen 
their education reform agendas. No one is defending the status 
quo.
    And there is enormous demand for the program. Forty States 
and the District of Columbia applied in phase one, requesting, 
collectively, $13 billion. We expect at least the same amount, 
if not more applications in phase two. And this is just one of 
our competitive programs.

          STATE IMPROVEMENT GRANTS AND INVESTING IN INNOVATION

    Thanks to School Improvement Grants provided by Congress in 
the last two budgets and the ARRA, educators across America are 
also confronting the toughest challenge in education, which is 
fixing their lowest-performing schools. Thanks to the Investing 
in Innovation program (i3), that was also created by Congress 
through the ARRA, school districts, foundations, and community 
partners are developing innovative new learning models to take 
into our classrooms and our schools.
    We expect as many as 2,500 applications, and we know that 
we will have at least 2 applications from every State. The 
entire country is looking to drive innovation at the local 
level, where we must take to scale what is working.

              TRAINING, RETAINING, AND RECRUITING TEACHERS

    Today, our colleges of education are rethinking how they 
train teachers for the classrooms of tomorrow. States, 
districts, and schools are rethinking how they recruit, 
support, and evaluate teachers in order to strengthen their 
profession. Teachers deserve better mentoring and professional 
development than they receive today.

                       ACCESS TO HIGHER EDUCATION

    And today, millions more young people are getting grants to 
attend college, thanks to the leadership of the President and 
Congress and the historic decision to shift billions of dollars 
from bank subsidies for student loans to help low-income 
students pay for college.
    Mr. Chairman, this would never have happened without your 
leadership. And I want you to know how much that means to me 
personally.

        ESEA REAUTHORIZATION AND FISCAL YEAR 2011 BUDGET REQUEST

    All of this work has been accelerated by your leadership 
and your collective commitment to children and education. And 
with your leadership, we want to do much more to support this 
work at the local level. Our proposed ESEA blueprint is defined 
by three words--fair, flexible, and focused.
    We want to create a fair system of accountability that 
instead of stigmatizing schools and educators rewards them for 
excellence. We want to focus on growth and gain rather than 
absolute test scores. Rather than dictating one-size-fits-all 
solutions, we want to give States and districts more 
flexibility to improve the vast majority of schools that may 
have challenges, but by no measure are failing.
    And third, we want to focus resources and support on 
students most at risk in chronically low-performing schools and 
schools with ongoing large achievement gaps.

                       GOALS OF REFORM STRATEGIES

    Our 2011 budget request supports continuing formula funding 
for low-income and special education students and teachers and 
principals, as well as students learning English and other 
diverse populations of children from rural to migrant to 
homeless. But we also know that too many children at risk today 
are not well served by the status quo, which is why I want to 
continue driving reform with competitive programs.
    All of our reform strategies have two goals--to raise the 
bar for all students and to close the achievement gap. We have 
to create better opportunities for students who need them the 
most. So with our budget request, we hope to continue Race to 
the Top, the Investing in Innovation Fund, and programs to get 
great teachers and principals into schools and classrooms where 
they are needed the most. To close the achievement gap, we must 
get serious about closing the opportunity gap.

                     EARLY LEARNING CHALLENGE FUND

    Mr. Chairman, I know that you and others worked tirelessly 
to include the Early Learning Challenge Fund in the student 
lending bill, and I thank you for that. Given that it 
ultimately was not included, we want to work with you to bring 
it back because we must do more to help students start school 
ready to succeed. That investment in early childhood education 
may be the best long-term investment we as a Nation can make.

                          STUDENT AID FUNDING

    Two other unmet needs are the remaining shortfall in the 
Pell Grant program and the increased administrative costs 
associated with the shift to 100 percent direct lending.
    I greatly appreciate the Senate leadership in helping cover 
the Pell shortfall in the reconciliation bill. Now I want to 
work with Congress to address the remainder of the shortfall 
through a supplemental appropriation or other appropriate 
measure to avoid putting pressure on other critical education 
programs.

           ADMINISTRATIVE COST OF 100 PERCENT DIRECT LENDING

    Last, given that we are now assuming 100 percent of the 
student loan portfolio, we must strengthen our student lending 
operation to ensure that the student aid program is efficient 
and our private contracts are well-managed. Most of the 
additional money we are requesting will support private loan 
servicing contracts.
    I want to salute Congress on both sides of the aisle for 
embracing our responsibility to our children and investing in 
education. Thanks to all of you, we have entered an exciting 
new era of educational reform, progress, and opportunity.

                                  ARRA

    I also ask you to consider the looming budget threat that 
could put all of this at risk. The ARRA dollars given to the 
Department of Education helped save an estimated 400,000 jobs 
at the State and local level, mostly in education, but also in 
public safety and other areas of critical need. It was the 
right thing to do, and it proved that fiscal relief is an 
effective way to create economic activity and jobs.

             NEED FOR ADDITIONAL EMERGENCY EDUCATION FUNDS

    The final round of funding is now making its way to State 
capitals and school districts and to college students through 
Pell Grants, but it is not nearly enough to avert the 
catastrophe unfolding across the country. And so, today, on 
behalf of Governors, mayors, educators, students, parents, 
business leaders, community leaders, and everyone who shares 
the view that education is the key to our economic strength and 
civic vitality, I urge Congress to consider another round of 
emergency support for America's schools.
    If we do not help avert this State and local budget crisis, 
we could impede reform and fail another generation of children. 
The fact is that gaps for special education, low-income, and 
minority students remain stubbornly wide. All of you know the 
reality of the challenges that our students and, therefore, our 
Nation face today. We must confront this reality with honesty, 
courage, and a commitment to challenge the status quo.

                      COLLEGE AND CAREER READINESS

    One in four, 1 in 4 of our high school students today fails 
to graduate. Forty percent of students who go on to college 
need remedial education. They are not actually ready. And huge 
numbers of young people determined to go to college and pursue 
a career drop out because of financial or academic challenges.
    If we want reform to move forward, we need an education 
jobs program. Jobs and reform go hand in hand. It is difficult 
to improve the quality of education while losing teachers, 
raising class size, eliminating days of instruction, 
eliminating after-school and summer-school programs. Our 
children, particularly disadvantaged children, desperately need 
more time, not less.

                           PREPARED STATEMENT

    Teachers work very hard, and the vast majority of them give 
their heart and soul to their profession. They are heroes in 
every sense of the word, and we need to support them, 
especially because we are asking more of them. The status quo 
in education is not good enough. We must all get better. Our 
children need it, and our future demands it.
    Thank you so much. I am now happy to take any questions you 
might have.
    [The statement follows:]
                   Prepared Statement of Arne Duncan
    Mr. Chairman and members of the subcommittee: Thank you for this 
opportunity to testify on behalf of the President's 2011 budget request 
for education. I want to begin by thanking all of you for your 
commitment to our children's education. This subcommittee has played a 
critical role in helping the Department to accomplish an extraordinary 
amount of work over the past year, both to help America's education 
system weather the economic recession and to launch key initiatives to 
improve the quality of that system.
    It was just more than a year ago that Congress and President Obama 
worked together to complete the American Recovery and Reinvestment Act 
of 2009 (Recovery Act). This legislation is delivering nearly $100 
billion in education funding to Recovery Act recipients, including 
States and school districts, to help address budget shortfalls in the 
midst of the most severe financial crisis and economic recession since 
the Great Depression. To date, the Department has awarded more than $69 
billion. For the quarter ending December 31, 2009, recipients reported 
that assistance from the Department of Education funded approximately 
400,000 jobs overall, including more than 300,000 education jobs, such 
as principals, teachers, librarians, and counselors. These numbers are 
consistent with the data submitted in October, during the first round 
of reporting, and this consistency reflects the steady and significant 
impact of the Recovery Act. Although State and local education budgets 
remain strained, schools systems throughout the country would be facing 
much more severe situations were it not for the Recovery Act. The 
Recovery Act also increased Federal postsecondary student aid to help 
students and families pay for college.
    I believe that the Recovery Act did much more than just provide 
short-term financial assistance to States and school districts. Indeed, 
I think the Recovery Act will be seen as a watershed for American 
education because it also laid the groundwork for needed reforms that 
will help improve our education system and ensure America's prosperity 
for decades to come. Thanks to the Recovery Act, all States now are 
working to strengthen their standards and assessments, improve teacher 
and leader effectiveness, improve data systems and increase the use of 
data to improve instruction, and turn around low-performing schools.
    In addition, the Recovery Act helped to jumpstart a new era of 
innovation and reform, particularly through the $4 billion Race to the 
Top Program and the $650 million Investing in Innovation Fund. Many 
States already have demonstrated their interest in Race to the Top by 
making essential changes, such as allowing data systems to link the 
achievement of individual students to their teachers and enabling the 
growth or expansion of high-quality charter schools, and on March 29 we 
were pleased to announce the first two Race to the Top awards to 
Delaware and Tennessee. Both of these States submitted applications 
demonstrating a successful track record, bold reforms, broad buy-in, 
and statewide impact. Tennessee capitalized on its value-added 
assessment system as the foundation for future reforms, while Delaware 
is building on its Vision 2015 blueprint. Both States also secured 
broad support through a combination of changing their State laws and 
coalition-building among school districts, unions, businesses, advocacy 
groups, and local philanthropies. I am confident that other States will 
draw on these lessons to submit even stronger applications during the 
second phase of the Race to the Top competition this summer.
    States also are demonstrating the progress they have made toward 
implementing the reforms called for in the State Fiscal Stabilization 
Fund in their applications for phase II of that funding. We must 
continue to invest in innovation and scale up what works to make 
dramatic improvements in education. The President's fiscal year 2011 
budget requests $1.35 billion for Race to the Top awards, both for 
States and for a new school district-level competition, as well as $500 
million in additional funding for the Investing in Innovation (i3) 
Program.
    Most recently, I want to thank all of the members of the 
subcommittee who supported the Health Care and Education Reconciliation 
Act, which President Obama signed into law on March 30, 2010. This 
legislation will allow the Department to make much-needed reforms to 
Federal postsecondary student loan programs that will save an estimated 
$68 billion over the next 11 years. These savings will be redirected 
toward a more generous and fiscally stable Pell Grant program, lowering 
the cost of student loans, improving our community college system, and 
increasing support for Historically Black Colleges and Universities and 
other minority-serving institutions.
                 president obama's 2011 budget request
    The centerpiece of the 2011 budget request for the Department of 
Education is the pending reauthorization of the Elementary and 
Secondary Education Act (ESEA). The President is asking for a 
discretionary increase of $3.5 billion for fiscal year 2011, of which 
$3 billion is dedicated to ESEA, the largest-ever requested increase 
for ESEA. Moreover, if Congress completes an ESEA reauthorization that 
is consistent with the President's plan, the administration will submit 
a budget amendment for up to an additional $1 billion for ESEA 
programs. We would greatly appreciate your support for this historic 
budget.
    The Department's budget and performance plan for 2011 also includes 
a limited number of high-priority performance goals that will be a 
particular focus over the next 2 years. These goals, which will help 
measure the success of the Department's cradle-to-career education 
strategy, reflect the importance of teaching and learning at all levels 
of our education system. The Department's goals include turning around 
struggling schools, improvements in the quality of teaching and 
learning, implementation of comprehensive statewide data systems, and 
simplifying student aid. These goals and other performance information 
are included in the President's fiscal year 2011 budget materials and 
are on www.ed.gov.
        fiscal year 2011 budget request and esea reauthorization
    Our 2011 budget request incorporates an outline of our key 
principles and proposals for ESEA reauthorization. These proposals are 
explained in more detail in our ``Blueprint for Reform,'' which was 
released on March 13, 2010 and which also is available at www.ed.gov. 
We have thought a great deal about the appropriate Federal role in 
elementary and secondary education, and want to move from a simple 
focus on rules, compliance, and labeling of insufficient achievement, 
toward a focus on flexibility for States and local educational agencies 
(LEAs) that demonstrate how they will use program funds to achieve 
results, and on positive incentives and rewards for success. That is 
why, for example, our 2011 budget request includes $1.85 billion in new 
funding for the Race to the Top and i3 Programs. In addition, our 
reauthorization proposal for title I, part A of ESEA would reward 
schools or LEAs that are making significant progress in improving 
student outcomes and closing achievement gaps. Our budget and 
reauthorization proposals also would increase the role of competition 
in awarding ESEA funds to support a greater emphasis on programs that 
are achieving successful results.
    We believe that our goals of providing greater incentives and 
rewards for success, increasing the role of competition in Federal 
education programs, supporting college- and career-readiness, turning 
around low-performing schools, and putting effective teachers in every 
classroom and effective leaders in every school require a restructuring 
of ESEA program authorities. For this reason, our budget and 
reauthorization proposals would consolidate 38 existing authorities 
into 11 new programs that give States, LEAs, and communities more 
choices in carrying out activities that focus on local needs, support 
promising practices, and improve outcomes for students, while 
maintaining Federal support for the most disadvantaged students, 
including dedicated formula grant programs for students who face unique 
challenges, such as English learners, homeless children, migrant 
students, and neglected and delinquent students.
                      college and career readiness
    Another key priority is building on the Recovery Act's emphasis on 
stronger standards and high-quality assessments aligned with those 
standards. We believe that a reauthorized title I program, which our 
budget request would fund at $14.5 billion, should focus on graduating 
every student college- and career-ready. States would adopt standards 
that build toward college- and career-readiness, and implement high-
quality assessments that are aligned with and capable of measuring 
individual student growth toward these standards. To support States in 
this effort, our request would provide $450 million, an increase of 10 
percent, for a reauthorized Assessing Achievement program (currently 
State assessments).
    States would measure school and LEA performance on the basis of 
progress in getting all students, including groups of students who are 
members of minority groups, from low-income families, English learners, 
and students with disabilities, on track to college- and career-
readiness, as well as in closing achievement gaps and improving 
graduation rates for high schools. States would use this information to 
differentiate schools and LEAs and provide appropriate rewards and 
supports, including recognition and rewards for those showing progress 
and required interventions in the lowest-performing schools and LEAs. 
To help turn around the Nation's lowest-performing schools, our budget 
would build on the $3 billion in school improvement grants provided in 
the Recovery Act by including $900 million for a School Turnaround 
Grants Program (currently School Improvement Grants). This and other 
parts of our budget demonstrate the principle that it is not enough to 
identify which schools need help--we must encourage and support State 
and local efforts to provide that help.
                 effective teachers and school leaders
    We also believe that if we want to improve student outcomes, 
especially in high-poverty schools, nothing is more important than 
ensuring that there are effective teachers in every classroom and 
effective leaders in every school. Longstanding achievement gaps 
closely track the inequities in classrooms and schools attended by poor 
and minority students, and fragmented ESEA programs have failed to make 
significant progress to close this gap. Our reauthorization proposal 
will ask States and LEAs to set clear standards for effective teaching 
and to design evaluation systems that fairly and rigorously 
differentiate between teachers on the basis of effectiveness and that 
provide them with targeted supports to enable them to improve. We also 
will propose to restructure the many teacher and teacher-related 
authorities in the current ESEA to more effectively recruit, prepare, 
support, reward, and retain effective teachers and school leaders. Key 
budget proposals in this area include $950 million for a Teacher and 
Leader Innovation Fund, which would support bold incentives and 
compensation plans designed to get our best teachers and leaders into 
our most challenging schools, and $405 million for a Teacher and Leader 
Pathways Program that would encourage and help to strengthen a variety 
of pathways, including alternative routes, to teaching and school 
leadership careers.
    We also are asking for $1 billion for an Effective Teaching and 
Learning for a Complete Education authority that would make competitive 
awards focused on high-need districts to improve instruction in the 
areas of literacy, science, technology, engineering, mathematics, the 
arts, foreign languages, civics and government, history, geography, 
economics and financial literacy, and other subjects. Our request also 
includes $2.5 billion for an Effective Teachers and Leaders formula 
grant program to help States and LEAs improve teaching and enhance the 
teaching profession.
    In addition, throughout our budget, we have included incentives for 
States and LEAs to use technology to improve effectiveness, efficiency, 
access, supports, and engagement across the curriculum. In combination 
with the other reforms supported by the budget, these efforts will pave 
the way to the future of teaching and learning.
                        improving stem outcomes
    One area that receives special attention in both our 2011 budget 
request and our reauthorization plan is improving instruction and 
student outcomes in science, technology, engineering, and mathematics 
(STEM). The world our youth will inherit will increasingly be 
influenced by science and technology, and it is our obligation to 
prepare them for that world.
    The 2011 request includes several activities that support this 
agenda and connect with President Obama's ``Educate to Innovate'' 
campaign, which is aimed at fostering public-private partnerships in 
support of STEM. Our goal is to move American students from the middle 
of the pack to the top of the world in STEM achievement over the next 
decade, by focusing on (1) enhancing the ability of teachers to deliver 
rigorous STEM content and providing the supports they need to deliver 
that instruction; (2) increasing STEM literacy so that all students can 
master challenging content and think critically in STEM fields; and (3) 
expanding STEM education and career opportunities for underrepresented 
groups, including women and girls and individuals with disabilities.
    Specifically, we are asking for $300 million to improve the 
teaching and learning of STEM subjects through the Effective Teaching 
and Learning: STEM Program; $150 million for STEM projects under the 
$500 million request for the i3 Program; and $25 million for a STEM 
initiative in the Fund for the Improvement of Postsecondary Education 
to identify and validate more effective approaches for attracting, 
retaining, engaging, and effectively teaching undergraduates in STEM 
fields. In addition, I have directed the Department to work closely 
with other Federal agencies, including the National Science Foundation, 
the Department of Defense, the National Aeronautics and Space 
Administration, and the National Institutes of Health to align our 
efforts toward our common goal of supporting students in STEM fields.
                        comprehensive solutions
    We also recognize that schools, parents, and students will benefit 
from investments in other areas that can help to improve student 
outcomes. Toward that end, we are proposing to expand the new Promise 
Neighborhoods Program by including $210 million in our budget to fund 
school reform and comprehensive social services for children in 
distressed communities from birth through college and career. A 
restructured Successful, Safe, and Healthy Students Program would 
provide $410 million to--for the first time--systematically measure 
school climates, which we know can affect student learning. This will 
help direct funding to schools that show the greatest need for 
resources to increase students' safety and well-being by reducing 
violence, harassment and bullying; promote student physical and mental 
health; and prevent student drug, alcohol, and tobacco use.
                     college access and completion
    The administration has made college- and career-readiness for all 
students the goal of its ESEA reauthorization proposal, because most 
students will need at least some postsecondary education to compete for 
jobs in the 21st century global economy. For this reason, we are 
proposing a College Pathways and Accelerated Learning Program that 
would increase high school graduation rates and preparation for college 
by providing students in high-poverty schools with opportunities to 
take advanced coursework that puts them on a path toward college. This 
new program would help expand access to accelerated learning 
opportunities such as Advanced Placement and International 
Baccalaureate courses, dual-enrollment programs that allow students to 
take college-level courses and earn college credit while in high 
school, and ``early college high schools'' that allow students to earn 
a high school degree and an associate's degree or 2 years of college 
credit simultaneously.
    Just as essential to preparing students for college is ensuring 
that students and families have the financial support they need to pay 
for college. We took a giant step toward this goal with the passage of 
the Health Care and Education Reconciliation Act, which will make key 
changes in student financial aid and higher education programs that are 
consistent with President Obama's goal of restoring America's status as 
first in the world in the percentage of college graduates by 2020. In 
combination with the Reconciliation Act, the 2011 request would make 
available more than $156 billion in new grants, loans, and work-study 
assistance--an increase of $58 billion, or 60 percent, more than the 
amount available in 2008--to help almost 15 million students and their 
families pay for college. And another achievement of the Recovery Act, 
the new American Opportunity Tax Credit, will provide an estimated $12 
billion in tax relief for 2009 filers. The budget proposes to make this 
refundable tax credit permanent, which will give families up to $10,000 
to help pay for 4 years of college.
    The Reconciliation Act also will invest more than $40 billion in 
Pell Grants to ensure that all eligible students receive an award and 
that these awards are increased in future years to help keep pace with 
rising college costs. Beginning in 2013, the act will provide annual 
increases based on the change in the Consumer Price Index that are 
expected to raise the maximum Pell award from $5,550 in 2013 to $5,975 
in 2017. In addition, by the 2020-2021 academic year, the number of 
Pell Grant recipients is expected to grow by more than 820,000.
    Finally, the Reconciliation Act will allow postsecondary students 
enrolling in 2014 or later, and who obtain a Federal student loan, to 
limit their monthly loan payments to 10 percent of their discretionary 
income, down from the previous requirement of 15 percent of income. 
More than 1 million borrowers will be eligible to reduce their monthly 
payments, and to obtain forgiveness of all remaining student loan debt 
after 20 years of payments, or just 10 years for public service workers 
such as teachers or nurses or those in military service.
                 improving outcomes for adult learners
    The 2011 budget request includes funding for a variety of programs 
that support adult learners, including career and technical education, 
and adult basic and literacy education. These programs provide 
essential support for State and local activities that help millions of 
Americans develop the knowledge and skills they need to reach their 
potential in the global economy. For example, our request would provide 
$1.3 billion for Career and Technical Education State Grants to support 
continued improvement and to increase the capacity of programs to 
prepare high school students to meet State college and career-ready 
standards. One of our greatest challenges is to help the 90 million 
adults for whom increasing basic literacy skills is a key to enhancing 
their career prospects. For this reason, we are asking for $612.3 
million for Adult Basic and Literacy Education State Grants, an 
increase of $30 million more than the comparable 2010 level, to help 
adults without a high school diploma or the equivalent to obtain the 
knowledge and skills necessary for postsecondary education, employment, 
and self-sufficiency.
            improving outcomes for persons with disabilities
    The budget also includes several requests and new initiatives to 
enhance opportunities for students and other persons with disabilities. 
For example, we are proposing a $250 million increase for Grants to 
States under the Individuals with Disabilities Education Act to help 
ensure that students with disabilities receive the education and 
related services they need to prepare them to lead productive, 
independent lives. The $3.6 billion request for Rehabilitation Services 
and Disability Research would consolidate nine Rehabilitation Act 
programs into three to reduce duplication and improve the provision of 
rehabilitation and independent living services for individuals with 
disabilities. The request includes a $6 million increase more than the 
2010 level for a new Grants for Independent Living Program (which 
consolidates Independent Living State Grants and Centers for 
Independent Living) and would provide additional funding for States 
with significant unmet needs. It also includes $25 million for a new 
program that would expand supported employment opportunities for youth 
with significant disabilities as they transition from school to the 
workforce, through competitive grants to States to develop innovative 
methods of providing extended services.
    The budget provides $112 million for the National Institute on 
Disability and Rehabilitation Research to support a broad portfolio of 
research and development, capacity-building, and knowledge translation 
activities. And the request includes $60 million--$30 million under 
Adult Education and $30 million under Vocational Rehabilitation--for 
the Workforce Innovation Fund, a new initiative in partnership with the 
Department of Labor. The proposed Partnership for Workforce Innovation, 
which encompasses $321 million of funding in the Departments of 
Education and Labor, would award competitive grants to encourage 
innovation and identify effective strategies for improving the delivery 
of services and outcomes for beneficiaries under programs authorized by 
the Workforce Investment Act. This investment will create strong 
incentives for change that, if scaled-up, could improve cross-program 
delivery of services and outcomes for beneficiaries of programs under 
the Workforce Investment Act.
                               conclusion
    In conclusion, we have made extraordinary progress in meeting the 
needs of our schools and communities in the midst of financial crisis 
and recession, making long-needed reforms in our Federal postsecondary 
student aid programs, and reawakening the spirit of innovation in our 
education system from early learning through college. The next step to 
cement and build on this progress is to complete a fundamental 
restructuring of ESEA, and we believe strongly that our 2011 budget 
request is essential to that effort. I look forward to working with the 
subcommittee toward that goal and have every confidence that with your 
continuing leadership and strong support from President Obama and the 
American people, we will accomplish this important task.
    Thank you. I would be happy to answer any questions you may have.

                          EDUCATION JOBS BILL

    Senator Harkin. Mr. Secretary, thank you for a very 
eloquent statement.
    I can't agree with you more. The status quo is not 
acceptable, and it is not acceptable during economic downturns 
to say that we are just going to take a lot of this out of the 
hide of education. You only get one chance at that, and if we 
fail our kids, that means we fail our future.
    So I am encouraged by your, I think, statement of support 
for a jobs, an education jobs bill. I mentioned the one that I 
am putting in today. I hope that we can count on your active 
support and the support of the administration in getting this 
emergency funding through because it is an emergency. And so, 
again, I hope we can count on your support for that. You 
mentioned that, and I appreciate it.
    Secretary Duncan. Yes, I appreciate your leadership so 
much. We absolutely need a jobs bill, and I look forward to 
working with you to work on the details of it.
    This is the right thing for the country. It is the right 
thing for the economy. It is the right thing for our children.

             DEFINING AND FUNDING EARLY LEARNING EDUCATION

    Senator Harkin. Absolutely. And we will consult with you on 
how best to get that done and structure it.
    You also mentioned something else, the early learning part 
of the bill that we didn't get in reconciliation because of a 
budget problem that we had, but something that you know I care 
very deeply about. It is one I talk about all the time, that we 
are always playing catch-up ball. And one of the reasons we 
play so much catch-up is that we don't put a lot of emphasis on 
the time when kids' brains are developing the most, and that is 
from birth to 5.
    As you heard me say before, I said it yesterday at a 
hearing at the HELP Committee, that perhaps we ought to rethink 
that elementary education starts at birth. It doesn't start 
when you get to kindergarten. Maybe it starts when you are 
born.
    That is not my statement. That was a statement made by the 
Committee on Education Development in 1991 that was set up by 
President Reagan to look at what we needed in education. It was 
a committee of business people. I guess President Reagan wanted 
the business community to tell us what we needed in education.
    Well, the committee met during the ensuing years after 
that. And finally, in 1991, they came out with a report. I was 
chairman of this subcommittee at that time. And James Renier, 
the head of Honeywell, presented that report to us. And mind 
you, here are some of the biggest business leaders in America, 
heads of big corporations, taking a look at education and what 
was needed. And their executive summary was very simple. It 
said we must remember that education begins at birth and that 
preparation for education begins before birth.
    The whole report was focused on early childhood learning. 
This is 1990, 1991. Twenty-one years later, we are still trying 
to figure out what to do on education. We have got to put more 
into early learning.

             FUNDING FOR EARLY CHILDHOOD EDUCATION IN 2010

    So, again, we are going to do everything we can in this 
budget cycle. I know it is not in your budget because you were 
probably counting on the money being in the reconciliation 
bill, which got knocked out. So, Mr. Secretary, I hope that we 
can count on working with you to find ways of getting that 
money back in our budget cycle for even as early as next year 
and working with us on that.
    Secretary Duncan. We have to. And that is exactly right. We 
didn't include it in our budget because we thought it was 
coming in through the other source.
    But let me tell you, Mr. Chairman, I would like to work 
with you to adjust our proposed budget. And we think we cannot 
walk away from this. This is the most important thing we can 
do, and so we want to figure out some ways with you to adjust 
our proposed fiscal year 2011 budget so that we can invest in 
early childhood education. We can't afford not to do that.
    Senator Harkin. Well, I can tell you I have had 
conversations with my counterpart on the House side concerning 
this issue and with you, and I look forward to working with you 
to see how we can shoehorn this in some way.
    Secretary Duncan. Our staff is working on a couple 
different options, and we should come back to you shortly with 
a proposal or two.
    Senator Harkin. I appreciate that very much.

                      RACE TO THE TOP COMPETITION

    Mr. Secretary, one thing I would just like to cover before 
I move on, and that is the whole Race to the Top issue. There 
has been a lot of debate, on, yes, Race to the Top. You have 
got a lot of money focused on grants to specific States when 
even as you pointed out in your comments, that whole structure 
is in danger right now.
    And so, the question has been raised to me as should we 
focus that kind of money on a few specific States that may win 
a competition, or do we need to focus this more on the broader 
structural basis of education?
    I think you partially answered that when you said that this 
is about 1 percent, if I am not mistaken. I think you said 
about 1 percent of the total education funding. So when put in 
that context, it gives more credence to this Race to the Top.
    Can you just tell us more of your thoughts on that and how 
we respond to the idea that, because of the structural 
problems, how can we focus on the Race to the Top?
    Secretary Duncan. It is a great question. I just think, 
frankly, we have to walk and chew gum at the same time. So we 
need to save jobs, absolutely. But we need reform as well. And 
these two things go hand in hand. They reinforce each other.
    If we are simply trying to preserve the status quo, we need 
to do that, but that is not going to get us where we need to 
go. We have a dropout rate that is unacceptable. We have far 
too many students who do graduate who aren't actually prepared 
for college or careers. And so, we need to make sure we don't 
go south and get worse, and that is what we are concerned about 
with the huge budget cuts that States and districts are looking 
at.

                              DROPOUT RATE

    At the same time, we have to be pushing very hard to get 
better, and we have to get that dropout rate down to zero 
absolutely as fast as we can. There are no good jobs out there 
today in the legal economy for a high school dropout. There are 
almost no good jobs out there if you just have a high school 
diploma. You have to have some form of training beyond that--4-
year universities, 2-year community colleges, trade, technical, 
vocational training.

                        RACE TO THE TOP FUNDING

    And so, we have to get better. We invest as a country each 
year approximately $650 billion in K to 12 education, $650 
billion. Race to the Top, at $4 billion, is less than 1 percent 
of national spending on education, and I think I can make a 
pretty good case to you that the amount of change we have seen 
around the country due to that less than 1 percent investment 
has been extraordinary.
    And we look forward in this next round to seeing more 
States win and benefit. We think States that go through the 
process are getting better and stronger, and they are having 
those conversations that haven't happened historically. And so, 
we hope we have a much larger set of winners in the second 
round. And as you know, we are coming back in the fiscal year 
2011 budget, we want to do a third round of Race to the Top and 
get to that next set of States. And so, this is an ongoing 
evolutionary process.
    But to see the amount of change that has happened with a 
very small amount of money I think is simply extraordinary. We 
had high hopes going in, and it has far exceeded our wildest 
expectations. And so, these are not--these ideas are not in 
conflict. These are false dichotomies. We have to do both.
    We have to make sure we don't go south. We have to make 
sure we are not seeing hundreds of thousands of people laid 
off. But we need to push for real, dramatic, transformational 
change at the same time.
    Senator Harkin. Mr. Secretary, I appreciate that answer. 
You are right. We have got to do both, and we can't let up on 
one or the other.
    Senator Cochran.

              RURAL AND LOW-INCOME SCHOOL DISTRICT FUNDING

    Senator Cochran. Mr. Chairman.
    Mr. Secretary, I noticed, looking through the summary of 
the request from the administration, that we are not seeing the 
increases requested for some of the programs that are targeted 
to low-income and poverty families whose students live in the 
rural areas of the country, the small towns. And I am 
disappointed in that.
    For example, my State has the highest percentage of 
students who qualify for the benefits of the title I program. 
Only the District of Columbia has a higher percentage than the 
students in our State. And I am worried that the budget request 
submitted by the administration sort of freezes that in place 
and doesn't provide for increases in formula grants under the 
title I program, for instance.
    And so, the schools and the communities with the highest 
numbers of poor students are going to continue to be held back 
and suffer in comparison with the resources that are being made 
available to students in the wealthier and larger cities of the 
country. Does this call for another look at the budget and with 
some emphasis being placed on improving and enlarging the 
amount of money going to these poor school districts, or are 
they going to be locked into last place forever?

                    SCHOOL IMPROVEMENT GRANT FUNDING

    Secretary Duncan. That is the last thing we would want, 
Senator. And you may know through the School Improvement Grants 
Program, which is going to the lowest-performing schools--I 
just checked the numbers--Mississippi is going to get an 
additional $46 million to help those children in poor 
communities--rural, urban, whatever it might be--who have been 
in historically very low-performing schools to try and 
transform the opportunities for them.
    So, it is a huge influx of resources coming to Mississippi 
and coming to every State around the country. And what I think 
we have done, quite frankly, is we have labeled lots of schools 
failures, but not much has changed in most places. In most 
places we really haven't seen the kind of transformational 
change to help those poor students break out of poverty and 
build successful lives.
    We are putting out an unprecedented amount of money--it is 
interesting that Race to the Top has gotten all the press and 
publicity. That is for 100 percent of the Race to the Top 
schools. That is $4 billion. But, there is $3.5 billion in 
school improvement grant funds just for the bottom 5 percent.
    And so, almost $46 million comes to Mississippi. The State 
is going to figure out what is the best way to turn around 
those low-performing schools. We have a couple of models out 
there. But we want to make sure those children who historically 
have been underserved have a chance with a real sense of 
urgency to get a much better education.

               RURAL EDUCATION ACHIEVEMENT PROGRAM (REAP)

    Senator Cochran. Well, one thing that bothers me, too, is 
the fact that we have level funding proposed by the 
administration for the REAP. The budget request freezes that 
program at a level of $174.9 million. It was designed to help 
rural districts overcome the additional costs associated with 
geographic isolation, distances that have to be traveled during 
the day in school buses from rural areas to the places where 
the schools are located.
    Transportation costs are up. Employee benefit costs are 
down. And there is an increase in poverty in most of these 
areas that qualify for the REAP, but it is level funding. That 
is an example of something that disturbs me, and I hope the 
administration will look carefully at the decisions that are 
made by the congressional committees in the House and the 
Senate.
    I would not be surprised at all, and as a matter of fact, I 
am hopeful that we will increase these funds that are available 
for competitive grants for some States and districts. But 
formula grants provide a reliable stream of funding to States 
and local districts that just don't have the teachers or the 
administrators with the educational backgrounds that are 
required to help move these districts forward.

                       MIGRANT EDUCATION PROGRAM

    So I know that money is tight. The Migrant Education 
Program is another one. Mississippi's funds for that program 
are going to be reduced from $1.076 million to $640,000. And 
these things just keep cropping up in this budget request page 
after page after page.

                             CONSOLIDATIONS

    Consolidating programs, as the administration proposes in 
the Even Start Family Literacy program, is going to cost 
Mississippi an estimated $830,000 in Even Start funding for 
fiscal year 2010. So I hope the administration will take 
another look at the budget request and work with the Congress 
to try to identify a fairer and more acceptable program for 
rural schools and small States.

                      INVESTING IN INNOVATION FUND

    Secretary Duncan. I absolutely look forward to working with 
you, Senator. And just to reiterate, the things we are doing, 
like the Investing in Innovation Fund, that $650 million fund, 
have actually included a competitive advantage for rural 
communities and rural districts. So we are really trying to 
make sure we are touching those communities.

                         PROGRAM CONSOLIDATIONS

    Where we consolidated programs, in every area, we actually 
increased funding. So there is a chance, whether it is around 
teachers and leaders, whether it is around a well-rounded 
education, student supports, diverse learners, because in every 
area we consolidated, we are actually increasing the amount of 
funds, which doesn't usually happen with consolidation. So 
there is a real chance for States and districts to put their 
best foot forward and get more resources in those areas. But we 
are trying to do fewer things, but do those things, those fewer 
things, do them in a world-class manner.
    Senator Harkin. Thank you, Senator Cochran.
    Senator Landrieu.

                RACE TO THE TOP--FIRST ROUND COMPETITION

    Senator Landrieu. Thank you.
    Thank you, Mr. Secretary. And I appreciate your enthusiasm 
and your focus on improving our schools because it is quite a 
challenge.
    I wanted to ask you, if I could, just about the Race to the 
Top program. Let me just get to my question here. We were one 
of the States that applied, as you know, and have been very 
encouraged by words that you and your administration have 
spoken about the good work that is happening in Louisiana that 
has been going on, as you know, for some time.
    The administration requested $1.4 billion to extend Race to 
the Top. Now the first competition has come to a close. We were 
not one of the States chosen, but I believe Delaware and, what 
was the other one, were.
    After evaluating some of the scores, however, of the States 
that did apply, it was interesting that if you decided to grade 
them somewhat differently by throwing out the high and the low, 
which is done in the Olympics and is done in many competitions, 
to get a better, clear average, the top two States would have 
remained the same. But in Louisiana's case, we would have moved 
up considerably.

                  RACE TO THE TOP--APPLICATION SCORING

    So that is just one question I pose to you. When you do the 
second round, are you thinking about the opportunity of a more 
fair scoring, number one? And number two, it was also 
interesting that a high weight was given to what seemed to be 
an application that had all parishes or counties onboard, all 
teacher unions onboard, all school boards onboard, which, in an 
ideal world, you know, would be what we were hoping for.
    But as you know, as a reformer in the trenches, it is 
sometimes difficult to deliver all the teacher unions, all the 
counties, all the parishes. And for applications like ours that 
represented a very strong and risk associated application for 
about half, to not be designated, I have to say, was just a 
real disappointment.
    So my questions are, one, is there going to be any new 
approach to scoring that might result in a more fair reflection 
of the actual quality of the application? And number two, why 
are we going to insist that if you can't get every school board 
and every county stepped up, your State can't try with the 
counties that are ready to go and willing to take the risk?
    Secretary Duncan. Really good questions, and obviously, 
Louisiana has done an extraordinary job in very, very difficult 
circumstances of driving reform and has made huge progress, and 
I know there is real disappointment that the State didn't win 
in the first round. I would absolutely urge the State to come 
back and come back stronger the second round. As you know, 
there is a huge amount of money that is going to go out, 
between $3.4 billion and $3.5 billion in the second go-around.
    To answer those two questions, I will answer the second 
question first that bold reform and broad stakeholder support 
is a winning combination. But watered down reform and broad 
stakeholder support is not. Bold reform matters, and I----
    Senator Landrieu. But let me just interrupt because this is 
very important. Nothing in our application was watered down.
    Secretary Duncan. Right.
    Senator Landrieu. The problem is if you push to get 
everyone there, you will give us no choice but to water down. 
In other words, half of something strong is better than 100 
percent of something weak and watered down. And that is what I 
am very concerned about, and I think there are many members 
that are driving this reform effort that are absolutely taken 
aback at the posture of this department.
    Secretary Duncan. Well, again, if you look at the results, 
the two winners were able to do both. But if you look at folks 
that came in with high scores right behind that, they had very 
broad reforms. And if we are going to fund 10 to 15 States, 
whatever the magic number will be in the second round, I think 
there is a huge opportunity there. So I----
    Senator Landrieu. So it is a real opportunity, I want to 
just say, for some unions. And some unions have been 
supportive, and some teacher unions have been supportive. But 
it is a real opportunity for those that don't want to be 
supportive, and there are obviously many entrenched interests, 
not just some unions, but school board members and others. I 
mean, this is a fight in every State, as anybody that is in 
this battle knows. This is a battle. It is not a waltz.
    And so, what you are saying is if you can't get everyone in 
your State to step up, we can't help you to start because it is 
so counter to the way that I have been leading this reform 
movement in Louisiana. So I just want to, Mr. Chairman, say how 
strongly I feel about the way this administration--and I am one 
of their biggest supporters. But this is going to have to be 
changed, in my view. Not watering down, but strengthening and 
rewarding those that will take the risk of reform, whether 
everybody is there or not.
    In any efforts I have led for reform, you don't get 100 
percent participation at the front end. You might get 10 people 
that show up at the line and say we are willing to go. Ninety 
people are back here. Then next year, 20 percent show up at the 
line, and you leave 80 percent behind. And soon, it is reform. 
So I am completely confused.

                        TEACH FOR AMERICA (TFA)

    And my second question is this, and I will add, Mr. 
Chairman, I know. But TFA, and the members of this subcommittee 
understand how strong TFA has been. I want to just read for the 
record, Mr. Chairman, it is harder today to get into Harvard 
Law School--I mean, it is harder today to get into TFA than it 
is to get into Harvard Law School. What a phenomenal success 
TFA has been.
    Think about that. Not even a Government-run program, not 
even a Government-started program. But a nonprofit, 
entrepreneurial, innovative program that has accomplished more 
than all of us, in my view, together, getting qualified 
teachers in the classroom, and we haven't fully funded their 
effort. I am going to submit a full funding to this chairman 
for his request.
    And when any Federal program can say that they are putting 
more qualified teachers in the classroom than are going to 
Harvard Law School, then we might take the funding and shift it 
over there.
    Thank you.
    Senator Harkin. Thank you, Senator.
    Senator Alexander.

                    FUNDING EXCELLENCE IN EDUCATION

    Senator Alexander. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here.
    I very much appreciate your leadership, the way you go 
about your job, the bipartisan way you do it. I am glad to be a 
part of a bipartisan working group to try to fix No Child Left 
Behind. I appreciate the struggle of trying to emphasize 
excellence at the same time you are trying to support schools, 
both.
    I remember as a Governor when I tried to encourage master 
teachers and centers of excellence and chairs of excellence. 
People would say, well, why would you do that when we need 
money for what we are already doing? And the answer really was, 
I don't think taxpayers really want to support much more 
funding for more of the same, but they will support a lot more 
funding for excellence. And there are many different ways to do 
it, but I am going to support your request for funding for 
excellence wherever I have the opportunity to do it.

                RACE TO THE TOP--FIRST ROUND COMPETITION

    And I have a question along a couple of lines about three 
specific programs, but I wanted, in senatorial custom, to make 
a couple of preliminary observations first. One is Tennessee 
was glad--and I can say this because I had nothing to do with 
it. The Governor, the legislature, the educators did it--to be 
one of the two winners of Race to the Top.
    And as terrific as that is going to be for the State, the 
Federal Government is really giving with one hand and taking 
away with another because the new healthcare bill, between 2014 
and 2019, is going to add between $1.1 billion and $1.5 billion 
of costs, most of which will have to come out of education, 
while the Race to the Top brings half a billion dollars of 
costs.

                              ARRA FUNDING

    Second, our Governor, a Democratic Governor, said at the 
time of the stimulus funding 2 years ago that these are one-
time funds, don't spend it on continuing operations. So as the 
chairman talks about $23 billion more, I wonder from whose 
schoolchildren we are going to borrow this money? Because we 
have a looming debt crisis in our country, and we will need to 
debate this. We all want to help our children, help our 
schools. But that is a deep concern.

                  FEDERAL DIRECT STUDENT LOANS PROGRAM

    As far as student loans, we didn't have much of a chance to 
debate that here. You know my views, and they are different 
than yours. But I think it is important to say that what we are 
really doing with this Federal takeover of the student loan 
program is borrowing money from 19 million students. We are 
borrowing the money--the Federal Government is--at 2.8 percent 
and loaning it to them at 6.8 percent and taking the savings 
and using it to pay for Pell Grants and some for healthcare.
    And I think it would be better if we are going to take it 
over and create so-called ``savings'' if we give the students 
the savings. We could lower the interest rate from 6.8 percent 
to 5.3 percent on the student loans and let that $61 billion or 
so be in the pockets of the 19 million students who are 
borrowing money to go to school.

                      HISTORY AND CIVICS EDUCATION

    Now on my questions, and then I will leave the rest of my 
time to you, there are three programs that I am especially 
interested in. One is the proposal Senator Byrd, the late 
Senator Kennedy, and I introduced to try to take the Federal 
programs on history and civics and consolidate them and make 
them an appropriate part of what the Federal Government does to 
help children learn--to support State and local efforts to help 
children learn what it means to be an American and finding a 
dedicated stream of funding for that.

                      TEACHER INCENTIVE FUND (TIF)

    Two is the TIF, which has been the most useful tool, I 
think, to you in Chicago, when you were superintendent, to many 
school districts around the country to help find effective 
ways, fair ways to pay teachers more for teaching well. And I 
wonder under your blueprint plans whether you are not running 
the risk of de-emphasizing that program?

                                  TFA

    And finally, along with Senator Landrieu, I strongly 
support TFA. It is an authorized program in the law, not an 
earmark, just as the history program is. And I am wondering if 
your blueprint that you are working with us on fixing No Child 
Left Behind doesn't de-emphasize it as well?
    So history and civics, the TIF for effective teaching and 
school leadership, and TFA, your comments on the priority those 
will have as you look forward the next few years?
    Secretary Duncan. Yes. I will try and take them in reverse 
order. On TFA, and I appreciate your passion and leadership on 
that, and Senator Landrieu, your passion and leadership. And 
let me be very clear, I am a huge fan of TFA, and I have seen 
the benefits around the country. I actually helped bring them 
to Chicago before I was the CEO of Chicago Public Schools. And 
that influx of talent, commitment, and passion has been 
extraordinary around the country.
    Senator Landrieu, as you know so well, talent matters 
tremendously. It is a phenomenal pool of hard-working, 
committed folks going to tough communities--inner-city, urban, 
rural, whatever it might be--who want to make a difference in 
students' lives. And so, I just want to be very, very clear 
where I stand on that.
    And the funding, we have, as you know, dramatically 
increased that pool of funding for teacher programs, and there 
is a real chance for TFA to put their best foot forward and 
through a competitive process bring in not just what they 
currently get but, frankly, significantly more resources. And 
that potential is there for them, as there are for other great 
programs that are bringing talent into education.
    And I don't think there is anything more important we can 
do as the baby boomer generation moves toward retirement than 
to bring in great new talent.
    Following the submission of their application for funding, 
the Department will likely award a grant to TFA in June 2010. 
Grant funds are typically available for 12 months, which would 
be until June 2011. And so, there should be funding there, and 
there will also be an opportunity going forward for them to 
compete for, frankly, significantly larger pools of money.

                             TIF INVESTMENT

    On the TIF, I have appreciated your leadership and vision 
on this for a long time. And it is one of the most important 
things we think we can do. As you know, we want to 
significantly increase that investment, going from $400 million 
in fiscal year 2010 to a proposed $950 million in 2011.
    And please, don't have any concerns about watering that 
down. We will absolutely--let me be clear. We will absolutely 
require grantees to create systems for identifying and 
rewarding outstanding teachers, as well as principals. And so, 
that commitment is unwavering, and I can't be more clear on 
that.
    On the first one, teaching American history, again, that is 
an area where we are actually increasing the investment, $265 
million for the history, arts, financial literacy, foreign 
languages, a 17 percent increase. We are doing it, as you know, 
on a competitive basis. But that pool of money, again, did not 
shrink, it is up 17 percent, and great programs have a chance, 
again, not just to maintain funding, but to, frankly, increase 
their funding.
    Senator Alexander. Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Alexander.
    Senator Pryor.

            COMPETITIVE ABILITY OF RURAL AND SMALL DISTRICTS

    Senator Pryor. Thank you, Mr. Chairman.
    And Mr. Secretary, thank you for being here today, and I do 
have a few questions for you. And first, let me say that I like 
competition. I think that is good that we introduce more 
competition into some of this. But I do have a concern about a 
rural State or a rural setting, smaller school districts that 
maybe don't have the resources and maybe don't have the grant 
writing background.
    And how do you factor that in considering that some 
districts in some States--some of the areas that need it the 
most--may be the least capable of going through the process? 
How do you address that?
    Secretary Duncan. That is a great question. We spent a lot 
of time thinking about that. And let me be really clear. We are 
not looking for great grant writers or fancy PowerPoint 
presentations. That is not our interest.
    We want to go where the need is. And there is tremendous 
unmet need in rural communities. And what we want people to do 
is just to simply show us their vision, show us where they want 
to go, show us their commitment to raising the bar for all 
students and closing the achievement gap, and that is where we 
want to invest.
    And so, whether it is the TIF grants, whether it is 
Investing in Innovation, where we made actually a competitive 
advantage for rural communities, we want the funds to go where 
the need is. And so, hold us accountable for that, but this is 
not going to be judged by the prettiest pie chart or the 
prettiest PowerPoint presentation. We want to go where there is 
real commitment, where there is real courage, where folks want 
to get better and demonstrate that commitment. And we want to 
partner with you to take to scale what works.

               NUMBER OF URBAN VS. RURAL SCHOOL DISTRICTS

    If we are serious about scaling-up best practices, the 
majority of our students are not in urban school districts. 
That is the reality. It is 2,000 districts out of 15,000. We 
have to play on a nationwide basis, and we are absolutely 
committed to doing that.

                 COMPARABILITY OF EDUCATIONAL SERVICES

    Senator Pryor. Great. Let me ask you another question about 
comparability. About 57 percent of all students in Arkansas are 
economically disadvantaged, and more than 1,700 students in my 
State take advantage of supplemental services. In terms of 
comparability, your blueprint aims to ``encourage increased 
resource equity at every level of the system'' and to ``over 
time require districts to ensure that their high-poverty 
schools receive State and local funding levels comparable to 
those received by their low-poverty schools.''
    Can you clarify that and explain how that works and what 
you mean by that?

            ADDRESSING THE ACHIEVEMENT AND OPPORTUNITY GAPS

    Secretary Duncan. Yes. Let me just, you know, explain the 
big picture. We as a Nation are rightfully focused on the 
achievement gap. I think we have had lots of talk about that. 
We have had very few places fundamentally breaking through on 
closing that achievement gap. And what I keep saying is that if 
we are serious about closing the achievement gap, we have to 
close what I call the opportunity gap.
    And to do that, we have to make sure that communities that 
have been historically underserved, be they rural, inner-city, 
urban, are finding ways to attract and retain the best teachers 
and the best principals. Talent matters tremendously in 
education.
    And I think in far too many places, there are very few 
incentives and, frankly, lots of disincentives for the best 
talent to go to the communities and the children who need the 
most help. And so, what we would really be doing is challenging 
everyone to think about what we are doing systemically to get 
students in the communities who often, frankly, for decades 
have been poorly served, how are we going to change that? How 
are we going to challenge the status quo?
    And this is one of many attempts to really start to address 
that question in a much more meaningful way than what I have 
seen historically.

                    APPROACH TO ESEA REAUTHORIZATION

    Senator Pryor. Good. You know, when I think about your 
background being from the Chicago area, and I know you have 
done a lot of work with inner-city work there, that is great. 
And then when I look at some of our districts in Arkansas that 
are rural and have all kinds of challenges, and a lot of our 
students there do--and I think if you look at a test score, 
they might score the same in some ways, but there may be a lot 
of factors that go into that score that cause them, for 
different reasons, to score that way. And I was glad to hear 
you say earlier that your three Fs are fair, flexible, and 
focused because I do think you have to be fair, but also you 
have to be flexible. You have to recognize the differences and 
the different factors that go into getting the results we want 
to get. And I remember back when I was the attorney general of 
my State, we had a big lawsuit over school funding. And some of 
that is very difficult to determine in terms of how you get 
from point A to point B and what you can do as a State or a 
district or certainly the Department of Education--what you can 
do to try to get us the results we need.
    So I just encourage you to be fair, flexible, and focused, 
but also keep in mind that second F, that flexibility, because 
one size is not going to fit all.

                        RECOGNIZING ACHIEVEMENT

    Secretary Duncan. No, I really appreciate that. And again, 
we just want to look for places that have that commitment to 
closing the gap and continue to support them.
    I just checked Arkansas's money for school turnarounds, 
again that bottom 5 percent in every State, you define who 
those bottom 5 percent are. You figure out how we get better--
$34 million. We are trying to put a huge amount of resources 
for, again, those children who haven't had the opportunities 
they need to fundamentally break through, whether it is more 
time, whether it is different leadership. Whatever it might be, 
we have to do better with a real sense of urgency.
    And we are trying to put our money where our mouth is. We 
are trying to put our resources there and say let us have some 
courage and let us do some things in a different manner.
    The final thing I will say is that so much of what bothered 
me about the previous law, well--let me just give you a quick 
example. Let us say you were a sixth grade teacher, and I came 
to you as a student three grade levels behind, reading at a 
third grade level. If I left your classroom one grade level 
behind, you were labeled a failure. Your school was labeled a 
failure.
    I think not only are you not a failure, I don't just think 
you are a good teacher, I think you are a great teacher. I 
gained 2 years of growth for a year's instruction. That teacher 
is a phenomenal teacher. We should be learning from them. We 
shouldn't be stigmatizing them. We should be replicating that. 
We should be rewarding that.
    We should figure out why I came to your class three grade 
levels behind and figure out what is going on downstream.
    Senator Pryor. Right.
    Secretary Duncan. But we want to really look at growth and 
gain and how much we are improving. If a dropout rate is going 
from 50 percent to 45 to 40 to 35, it's still too high, but 
it's going the right way. If it is at 50, 50, 50, 52, 55, well, 
that is a real problem. That is a place that is stagnating, not 
getting any better.

                    PROMISE NEIGHBORHOODS INITIATIVE

    So really looking at improvement, and it takes lots of 
things. It takes a community. It takes parental engagement. It 
takes challenging students. We have this Promise Neighborhoods 
Initiative, which we haven't talked about, where we want to 
create communities around schools that make sure students are 
safe and make sure the entire neighborhood is working behind 
students so they can be successful academically.
    So we want to come at this from a lot of different 
approaches, but ultimately, we want to look at who is serious 
about seeing students improve dramatically.
    Senator Pryor. Yes. I think my State has a good story to 
tell there. The numbers in my State are going in the right 
direction, but it has taken a lot of hard work at the local and 
State level.
    Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator.
    Senator Shelby.

                  IMPACT OF WEAK ECONOMY ON EDUCATION

    Senator Shelby. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. I want to get into an area that 
Senator Pryor did. My State of Alabama, the unemployment rate 
in Alabama, February 2007, was 3.4 percent. We had some good 
years, a lot of good years.
    The unemployment rate jumped to 4.2 percent February 2008. 
February 2009, it had gone up to 8.7 percent. February 2010, it 
is 11.1 percent, it was. So this wreaks havoc on everything--
the economy, the collection of taxes, the schools.
    I think we have been making a lot of progress in my State 
of Alabama with our schools, but the economy is weakened, as I 
have pointed out. We have lost more than 2,000 teachers. Think 
about it. Two thousand teachers in the past 4 years, and our 
jobless rate, as I pointed out, has tripled. There is a 
correlation between all this.
    It has been proposed that we might lose another 1,500 
teachers in the coming years. How will schools, not just my 
State, but around the country, but particularly Alabama right 
now, if we continue to carry out reforms, can we do this as we 
lose all these teachers, Mr. Secretary?

                   EMERGENCY JOBS BILL FOR EDUCATION

    Secretary Duncan. It is a great question. Before you got 
here, the Chairman spoke eloquently, and I supported him. I 
think we need--I don't know if you would agree or disagree. I 
think we need an emergency jobs bill. I don't have my numbers 
in front of me for Alabama. But we saved, conservatively, 
300,000 educator jobs around the country last year.
    Alabama got absolutely its fair share, but we are very, 
very concerned. So I am strongly supporting emergency action by 
Congress. What is happening in Alabama, we are seeing very, 
very similar, if not worse numbers in the majority of States 
around the country. It is a devastating time.
    Senator Shelby. It is not just my State, but we have 
problems in my State. We have a lot of promise, but we have 
some problems, as you know. But it is the Nation----
    Secretary Duncan. It is the entire country. No one is 
untouched by this. And when you see tens of thousands, hundreds 
of thousands of educators being laid off, that has a huge 
impact on the entire economy. It has an impact on students' 
futures, and I think this would be the right investment to 
make. It is the right thing to do at the right time for the 
right reasons.
    So that is something that Senator Harkin is actually 
proposing today, an emergency jobs bill, and we want to work 
with him on the details. But, if it is something interesting, I 
would love to continue that conversation.

             RURAL DISTRICTS ABILITY TO COMPETE FOR GRANTS

    Senator Shelby. But the grants, Senator Pryor brought this 
up, does the grant program do detriment to a lot of the rural 
counties, smaller counties all over America, as opposed to some 
of the more urbane, urban counties?
    Secretary Duncan. Not at all. And again, I want you to 
really hold us accountable. What we want is to invest--the 
Investing in Innovation Fund or the Promise Neighborhoods 
initiative, we want to work throughout the country. And there 
is tremendous unmet need in rural communities and rural States.
    I was fortunate to be in your State a couple of weeks back 
and have an absolutely memorable visit, and the challenges that 
I saw were staggering. And we want to invest in those places 
that want to get better and where there is tremendous need, and 
that includes rural communities.
    Senator Shelby. Just a few minutes ago, I believe, you 
stated, and I will quote you, ``We want to go where the need 
is.''
    Secretary Duncan. Yes, sir.

                      HIGH SCHOOL GRADUATION RATE

    Senator Shelby. Just a few minutes ago. Well, obviously, we 
have some needs. We are not by ourselves. Alabama has, it is my 
information, had a high school graduation rate of 67 percent, 
compared to the national rate of 74 percent. And this is--
although we have improved, we have got a long way to go.
    But if we lose money or we lose out on the funding program, 
I think we will not be by ourselves, would we?
    Secretary Duncan. No, I agree. And so, again, I think if we 
can get a jobs bill passed, that would be a huge benefit. 
Alabama has made real progress. I am a big fan of your State 
superintendent. I think he is doing----
    Senator Shelby. He is going to testify in a few minutes.
    Secretary Duncan. Is he? Well, he is a fantastic--I am glad 
I said the right thing then.
    But in all seriousness, I am a big fan of his. He is 
working extraordinarily hard. To see his level of commitment 
and the community support of his efforts was remarkable, and I 
think with the jobs--he will talk about the problems, but with 
a jobs bill we have a chance to make sure we don't get worse 
and, at the same time, try and push for the kind of real 
transformational change we need.
    Senator Shelby. Well, in a nutshell, how will the grant 
program work as compared to the status quo?
    Secretary Duncan. Well, we are talking about a couple of 
different things. If we have a jobs program, that would help to 
preserve somewhere between 100,000 and 300,000 jobs, education 
jobs around the country. And there is desperate need out there. 
At the same time we are doing that, we don't just want to 
preserve the status quo. We have to continue to get better.
    And so, Race to the Top, the Investing in Innovation Fund, 
School Improvement Grants, TIF, Promise Neighborhoods, all 
those are attempts to really have the kind of breakthrough 
changes that we need. So we need to do both at the same time. 
These ideas are not in conflict. We have got to do both.
    Senator Shelby. But if you go where the need is, you are 
going to go to a lot of the rural areas, too, are you not?
    Secretary Duncan. Yes, sir.
    Senator Shelby. Okay. Thank you, Mr. Chairman.

             CLOSING REMARKS TO THE SECRETARY OF EDUCATION

    Senator Harkin. Secretary Duncan, thank you very much for 
your testimony and for answering questions. We may hold the 
record open for a while here to have some written questions 
from Senators who were not able to be here because of schedule 
conflicts.
    So, with that, Mr. Secretary, thank you very much. Look 
forward to working with you.
    Secretary Duncan. Thanks for all your leadership.
    Senator Harkin. Thank you, Mr. Secretary.

                  INTRODUCTION OF EDUCATION JOBS PANEL

    The Secretary will be excused. We have a second panel that 
will be coming up, a panel to talk about education jobs, which 
we heard about here with Secretary Duncan and others on this 
panel.
    Senator Harkin. All right. If we could get our panel 
seated? Mr. Ramon C. Cortines is the superintendent of the Los 
Angeles Unified School District. Mr. Cortines began his 
teaching career in Aptos, California, in 1956. From 1995 to 
1997, he served as special adviser to U.S. Secretary of 
Education Richard Riley.
    We have Chris Bern, president of the Iowa State Education 
Association and a math teacher at Knoxville High School, 
graduate of Buena Vista College in Storm Lake with a degree in 
mathematics.
    And I will skip over the next because I will leave that to 
Senator Shelby. Then we have Mr. Marc S. Herzog, currently 
chancellor of Connecticut Community Colleges, a position he has 
held since 1999. Mr. Herzog holds a master's of science degree 
in guidance and counseling from Central Connecticut State 
University and a bachelor of arts degree in education from 
Yankton College in South Dakota.
    And with that, I will yield to my friend from Alabama for 
purposes of an introduction.
    Senator Shelby. Thank you. Thank you, Chairman Harkin.
    I will be brief, but I don't get this chance every day. We 
have a distinguished superintendent of education from Alabama. 
He is sitting here, Dr. Joe Morton, and I am pleased to welcome 
him here, and I hope to engage him in a few minutes in some 
questions.
    Dr. Morton's impressive background includes, among other 
things, the creation and implementation of the Alabama Reading 
Initiative; the Alabama Math, Science, and Technology 
Initiative; and the First Choice plan, a new graduation plan 
for Alabama students. We are proud of his tenure. Under his 
tenure, we have shown significant academic gains in reading and 
math assessment scores, and he has been judged a national 
leader in training future teachers and principals.
    We are pleased to have you here today, Dr. Morton.
    Senator Harkin. Thank you very much, Senator Shelby.
    Dr. Morton, we welcome you here also.
    We will start here from just as I introduced, Dr. Cortines 
over. And I looked over your testimonies last evening. They 
will all be made a part of the record in their entirety, and I 
would ask if you could kind of sum it up in, oh, 5 to 7 
minutes, and then we can get into some questions and answers.
    I have asked this panel to be here to mostly focus on the 
issue of jobs and what is happening. You heard us talk here 
before with the Secretary. Senator Shelby talked about it also. 
What are we seeing out there? What is happening so that we are 
not caught unawares here? What are we looking at next year in 
your States, in your districts, things like that, that we 
should be taking some action on very soon.
    If you have other things you want to talk about, that is 
fine, too. But I would like to focus a little bit on this jobs 
issue.
    Mr. Cortines, welcome again. Here we just had someone from 
Los Angeles at a hearing yesterday, Green Dot.
    Mr. Cortines. Marco Petruzzi.
    Senator Harkin. Exactly, right. He was on another Committee 
I chaired yesterday.
    Mr. Cortines, welcome, and please proceed.
STATEMENT OF RAMON C. CORTINES, SUPERINTENDENT, LOS 
            ANGELES UNIFIED SCHOOL DISTRICT
    Mr. Cortines. Thank you.
    Chairman Harkin and subcommittee members, thank you for 
this invitation. I head the second-largest district in the 
Nation. Our enrollment is 618,000 students, and as you know, it 
is larger than the total number of students who attend public 
schools in 25 States.
    First, let me thank and congratulate Senator Harkin for 
introducing the Keep Our Educators Working, which would create 
a $23 billion education jobs fund modeled after the SFSF that 
was established in the ARRA. I support this bill and ask all to 
support for the teachers, the principals, the counselors, 
school nurses, and other essential public school employees that 
are losing their jobs.
    Today, I ask you to help us to stop the hemorrhaging of 
teachers and other essential public school employees in Los 
Angeles and across the Nation in other big cities, in small 
towns, and in rural areas. Two thousand teachers gone from our 
district, and more are on the chopping block right now as State 
funding continues to shrink.
    I don't know every name of those 2,000 teachers, but our 
students do. Who is the first person you see at a school? 
Office workers, who are disappearing. Our schools would neither 
be healthy or beautiful without custodians, whose numbers 
continue to dwindle.
    You name it--teachers, principals, counselors, school 
nurses, cafeteria workers, support personnel--are a part of an 
unchecked exodus forced by California's financial realities.
    Unfortunately, it is not over. The district was forced last 
month to send out nearly 5,200 reduction in force notices to 
principals, teachers, and other school-based staff. Some, 
though certainly not all, will keep their jobs because the 
unions representing these individuals have agreed last week to 
shorten the school year by 5 days this June and next year, too, 
to save $175 million.
    As a result, our students' teachers are losing 
instructional time and taking a pay cut. Their sacrifices are 
generally appreciated, but much more is needed to close a $640 
million budget gap. Because of the State budget problems, 
thousands of noninstructional employees will soon lose their 
jobs. Many of those lucky enough to keep their positions are 
subject to unpaid furlough days, a steep reduction of work 
time, and significant pay cuts during the next school year.
    Furlough days are one way to save jobs. I have worked with 
the unions representing school police, office workers, bus 
drivers, and others who are willing to work fewer days and earn 
less so more employees can keep their jobs. That is why I am 
asking to save our employees and protect the futures of our 
students.
    I am asking to support the $23 billion in education aid 
that Members of the House included through the SFSF in the Jobs 
for Main Street Act. If Congress provides this money, the Los 
Angeles District could receive approximately $250 million and 
save as many as 3,000 jobs.
    What more can Washington do? Provide more funding for the 
disadvantaged students. And it has been said this morning, 
whether they are in urban districts or mid-sized districts or 
rural America, President Obama's budget for the fiscal year 
2010-2011 freezes title I spending, and that will have a very 
negative consequence for our district. Devastating to the 
district's 631 title I schools, it will specifically hurt at 
least 78 percent of our students based on eligibility for free 
and reduced lunch periods and hamper our efforts to close the 
achievement gap.
    We appreciate the additional title I dollars received last 
year. Neither I nor headquarters dictated how that money would 
be spent. It was pushed out to the schools, and school 
teachers, parents, administrators, and the community, they made 
the decisions on how we would spend that money. For example, 
many schools chose to hire additional teachers to preserve 
smaller class size at the primary grades.
    Washington can also help keep a promise made long ago to 
provide 40 percent of the cost of special education. The fiscal 
year 2010-2011 budget would limit funding to 17 percent, 
resulting in a shortage of $172 million for the district. And 
despite the shortfall, the Federal Government requires special 
education to get the services, and they deserve to support them 
in every way.
    Paying for these requirements diverts local contributions 
from the instruction of more than 500,000 students who do not 
have disabilities.
    Senator Harkin. Mr. Cortines, could I ask you to summarize, 
please?

                           PREPARED STATEMENT

    Mr. Cortines. Okay. As I conclude, I want you to know that 
one of our outstanding seniors, Tyki, read--if you read his 
bio, you may dismiss him as an unfortunate statistic. Born 
crack addicted, father passed away, mother incarcerated, 
bounced from home to home.
    Today, Tyki is a straight-A student at Washington Prep High 
School in south Los Angeles. He is excelling in advanced 
placement calculus, biology, chemistry, and physics. And when 
he graduates, he is headed to the U.S. Military Academy. There 
are countless stories like Tyki in the L.A. student body.
    Thank you for your consideration, support, and help.
    [The statement follows:]
                Prepared Statement of Ramon C. Cortines
    Chairman Harkin and subcommittee members, thank you for this 
invitation to testify on behalf of the Los Angeles Unified School 
District (LAUSD), the Nation's second largest. I am Superintendent 
Ramon C. Cortines. Our enrollment of 618,000 students is larger than 
the total number of students who attend public school in 25 States. I 
also would like to take this opportunity to thank Chairman Harkin for 
his strong leadership and advocacy for education issues in the 
Congress. We stand together in the march toward an educated America, 
where all students are prepared and encouraged to read, write, think, 
and speak as 21st century learners who will become the next generation 
of leaders, teachers, doctors, engineers, writers, electricians, 
contractors, and business owners. That will not happen if our district 
and school districts across the Nation in big cities, small towns and 
rural areas continue to hemorrhage teachers and other essential 
employees.
                      california's bad news budget
    In California, public education is suffering one of the greatest 
threats in decades as funding from the State shrinks. Also threatened 
is an opportunity for great, systemic and long-lasting reform, always a 
challenge but even more so when the unpredictable budget cuts keep 
coming, month after month.
    The numerous and unyielding reductions in State funding have 
translated into the LAUSD's current deficit of $640 million and a 
projected deficit of $263 million in 2011-2012. And, the news never 
improves. State Controller John Chiang recently announced that the 
upcoming fiscal years will be particularly difficult for our State 
because the temporary tax hikes approved by the legislature last year 
will expire; Federal stimulus funds will be gone; and funds that the 
State borrowed from local governments will become due. Furthermore, the 
State's Legislative Analyst Office has projected that California will 
have a $20 billion deficit every year for the next 5 years.
    It is not hyperbole to State that the LAUSD is again facing a 
budget crisis of the most unprecedented proportion. We have cut $1.5 
billion from our budgets over the past 2 years. That's a lot of jobs.
    Two thousand teachers gone last year and more are on the chopping 
block right now. Office workers, the first person you see at a school, 
disappearing. Our schools would be neither healthy nor beautiful 
without custodians whose numbers continue to dwindle. You name it. 
Teachers, administrators, counselors, school nurses, cafeteria workers, 
support personnel are part of an exodus forced by financial realities.
    LAUSD was forced last month to send out nearly 5,200 reduction-in-
force notices to teachers, principals, and other school-based staff. 
Some, though certainly not all, will keep their jobs because the unions 
representing our teachers and administrators just agreed last week to 
shorten the school year by 5 days this June and next in order to save 
about $157 million and preserve class sizes that are already too high. 
Teachers are losing instructional time and taking a pay cut. Their 
sacrifices are certainly appreciated, but alone do not close the budget 
gap.
    Unfortunately, many more LAUSD employees will soon lose their jobs 
including thousands of noninstructional staff. Many of the lucky ones 
who keep their jobs must take more than 40 unpaid furlough days, a pay 
cut of more than 20 percent as the workload increases. I have worked 
with unions representing school police, office workers, bus drivers and 
others who are willing to work fewer days, and earn less so more can 
keep their jobs.
                what washington can do--jobs, jobs, jobs
    LAUSD is not the only district in California facing layoffs. 
Statewide, nearly 22,000 teachers have received notices of potential 
layoffs. According to the California Department of Education, more than 
16,000 teachers lost their jobs last year, and roughly 10,000 
classified or noninstructional school employees have met the same fate 
over the last couple of budget cycles. As you can see, public schools 
urgently need additional money now for the 2010-11 school year.
    I applaud members of the House of Representatives for including an 
additional $23 billion in education aid through the State Fiscal 
Stabilization Fund (SFSF) in the Jobs for Main Street Act, which passed 
in December. I urge the Senate to support similar education jobs relief 
to save teachers and protect the futures of students. If Congress 
provides this $23 billion, it is estimated that LAUSD could receive 
approximately $250 million and save as many as 3,000 jobs.
   what more can washington do--more money for disadvantaged students
    In addition to an immediate infusion of fiscal relief to save jobs, 
Washington should provide additional investments in such critical 
education programs as title I and special education. While the fiscal 
year 2011 budget proposed by President Obama gives education an overall 
increase of $3.5 billion, including a $3 billion (12 percent) increase 
for the Elementary Secondary Education Act (ESEA), it freezes title I, 
which will have serious negative consequences for the LAUSD. It will 
hurt at least 78 percent of our students, and more as the numbers who 
qualify for free and reduced-price lunch are increasing. It will be 
devastating to LAUSD's 631 title I schools.
                      fully fund special education
    The fiscal year 2011 budget also fails to increase the Federal 
share of funding for special education, limiting it to only 17 percent 
of the costs. Congress must make good on the original promise to 
provide 40 percent. LAUSD currently receives $135 million in Federal 
funds for special education, which--if fully funded--should amount to 
$307 million, a shortage of $172 million. During the current school 
year, LAUSD serves 82,751 special education students. The Individuals 
with Disabilities Education Act (IDEA) mandates that each special 
education student receives an individualized education plan, which 
determines required supports and services regardless of costs that 
continue to rise. Add to that financial burden, the number of special 
education students continues to rise. This unfunded Federal requirement 
forces the diversion of locally contributed general fund dollars from 
the instruction of the more than 500,000 LAUSD students who do not have 
disabilities.
   stop the state from hijacking funds washington intends for public 
                               education
    We appreciate the assistance our schools have already received from 
Washington. The American Recovery and Reinvestment Act (ARRA) provided 
critical help during the current school year in the form of additional 
aid for title I of the ESEA, IDEA, and through SFSF. The funds LAUSD 
received allowed us to save approximately 7,000 jobs of teachers and 
other employees.
    With the help of $359 million from the SFSF, LAUSD was able to save 
more than 4,600 jobs last year. The ARRA title I and IDEA money helped 
us save another 2,143 jobs. In the case of the title I dollars, neither 
I nor anyone else at headquarters dictated how they would be spent. 
That money was pushed out to schools to decide how the money could be 
best spent on that individual campus.
    Even more jobs could have been saved, but unfortunately, in order 
to shore up the State's depleting resources, the California Department 
of Finance kept millions in SFSF that LAUSD had counted on to use this 
coming year to help fill our $640 million budget gap. That is certainly 
not what Washington intended. Given the State's penchant for hijacking 
dollars earmarked for public education to address its own budget 
shortfalls, those funds should flow directly to local school districts 
to protect our students, schools and jobs.
       the uniqueness of the los angeles unified school district
    As head of LAUSD, I lead the Nation's second largest district. At 
least 78 percent of our students qualify for either free or reduced-
priced lunches. More than 74 percent of our students are Latino, and 
almost 11 percent are African American. More than 40 percent are 
English language learners, a reflection of the close to 100 languages 
and dialects spoken in their homes. LAUSD is the second largest 
employer in Los Angeles County, with 72,000 employees who serve more 
than 891 K-12 schools. Our students come from a 710-square mile area 
that, in addition to Los Angeles, includes dozens of cities and 
unincorporated neighborhoods located in the surrounding Los Angeles 
County. In short-- our size, our diversity, our mission, and our 
challenges are great.
                               innovation
    In September, 37 schools--including some brand-new campuses and 
some of our existing lowest-performing schools--will be operated by 
nonprofit groups, collaborative teams of teachers and administrators, 
and charter schools under the new and competitive Public School Choice 
Initiative. Speaking of charters schools, no district in this Nation 
has more than LAUSD. Add to these multiple routes to success for our 
students, partnership and pilot schools. If outsiders can do a better 
job of educating any of our students, we welcome their help, and we 
want to learn from their successes. If insiders can do a better job, 
including teams from the teachers' union and the bargaining unit 
representing principals and administrators, they are also welcome to 
help improve our schools.
    We also welcome the involvement of more parents. An annual school 
report card intended for parents and guardians chronicles strengths and 
weaknesses of each campus ranging from academic achievement to 
attendance, while also tracking failures and soaring improvement in 
categories such as parental involvement per school.
                   not satisfied with chronic failure
    To address the specific needs of a low-performing school, I ordered 
the turnaround of one high school under the No Child Left Behind Act. A 
new principal is already on-board and teachers, including veterans and 
newcomers, are applying for the opportunity to boost student 
achievement. That is just the beginning.
    At Belmont High School, teachers, students, and the community 
overcame decades of struggle and overcrowded classrooms to raise its 
State standardized Academic Performance Index (API) score by 78 points 
last year. Belmont High is part of the Belmont Zone of Choice where all 
area students select between the historic campus and three newly built 
high schools where students are educated through small learning 
communities and pilot schools focused on various careers and themes.
                                progress
    LAUSD employs more than 30,000 teachers ranging from miracle 
workers and outstanding instructors to some who are not making the 
grade. Help is provided through professional development and peer 
assistance review a collaborative program with the teachers union. In 
addition, I have toughened a flawed evaluation process that too often 
allowed all but the weakest teachers to pass probation and get tenure, 
which translates into a job for life. Principals are being held 
accountable for weeding out nonpermanent teachers who are neither a 
benefit to students nor schools. Probationary teachers who received 
``needs improvement'' in one or more categories in their last 
evaluation are being scrutinized as are 175 permanent teachers who 
received an overall ``below standard'' evaluation. Teachers who have 
received sub par evaluations for the past 2 school years, will not get 
a third chance. As a result, in June, more ineffective permanent and 
probationary teachers will be ushered out of this District--so better 
teachers will not be laid off.
                               conclusion
    Clearly the LAUSD needs your help. Please make public education 
your highest priority and fund this historic opportunity for reform. 
Teacher and other school-related jobs should be viewed as an investment 
in America's present and future. Every job lost adds to the 
unemployment rate and the housing foreclosure crisis--but in this case, 
it also hinders the education of hundreds of thousands of students in 
the Los Angeles area and across the Nation. Education-related jobs 
directly impact our students' futures in ways that can only be 
partially quantified at this time. The loss of instructional days, 
class offerings, enrichment courses, Arts programming, and other vital 
services may negatively affect our students for generations.
    Again, I would like to thank Senator Harkin for the opportunity to 
testify today, and for his strong and continuing leadership for 
education.

    Senator Harkin. Thank you very much, Mr. Cortines.
    Mr. Bern, welcome.
STATEMENT OF CHRIS BERN, PRESIDENT, IOWA STATE 
            EDUCATION ASSOCIATION
    Mr. Bern. Thank you, Chairman Harkin, Ranking Member 
Cochran, and members of the subcommittee.
    My name is Chris Bern, and I have been a public school 
teacher in Iowa for more than 30 years. Two years ago, I was 
elected to serve as president of the Iowa State Education 
Association, representing 34,000 dedicated educators in more 
than 350 school districts across Iowa.
    We are fortunate in Iowa to have some of the best public 
schools in the country. Yet today, in Iowa and across the 
country, scores of talented, experienced teachers and education 
support professionals are at risk of losing their jobs due to 
historic State and local budget deficits.
    I am very worried about what this means for our economy, as 
investments in education are inextricably linked to economic 
strength. But more importantly, I am worried about what it 
means for our students.
    A school district facing massive job losses will face 
larger class sizes and/or elimination of programs, both of 
which are detrimental to students. Not one fewer student is 
coming through our doors because of the economic crisis. They 
still need us to help them, inspire them, and educate them 
every single day.
    The education jobs crisis is not only about adults. It is 
about children, who get only one shot at an education and 
didn't ask to go to school during this crisis. Although our 
State revenue picture improved slightly this spring, we still 
anticipate as many as 1,500 teachers and support workers will 
receive pink slips. That's almost 4 percent of Iowa's education 
workforce. And that doesn't count the other positions not being 
filled due to retirements and attrition.
    The education investment in the ARRA was critically 
important. It funded 6,715 education jobs in Iowa--teachers, 
librarians, nurses, and support workers. Close to 5,000 of 
those jobs resulted directly from the aid in the SFSF. We 
desperately need this aid extended now.
    Let me tell you about one of my colleagues whose job was 
saved because of ARRA, an Iowa City special education teacher 
who was pink-slipped last year. She split her time in two 
schools working with students needing individual assistance. 
Without her, these students most certainly would fail. ARRA 
saved her job. She is now employed full time at Penn Elementary 
and continues her work with special needs students.
    What would the classroom be like without her and others 
like her? If she had lost her job, she says that she may have 
left the profession. We cannot afford that collateral damage 
either.
    The Senate needs to act quickly on an education jobs 
package. The House has already passed $23 billion for an 
education jobs fund. That bill will help save or fund as many 
as 4,900 Iowa education jobs.
    I want to thank you, Senator Harkin, for your leadership in 
introducing a similar bill in the Senate this week, the Keep 
Our Educators Working Act. I hope your colleagues will support 
it and approve it quickly.
    My colleagues back home asked me to deliver a strong 
message--please act now to help avert the looming layoffs that 
will reach into almost every Iowa community, threatening our 
economic recovery and our students' education.
    I also ask the Senate to look closely at the 
administration's proposal to increase the use of competitive 
education grants. Formula grants provide a solid foundation of 
resources needed to ensure a quality education. This has never 
been more important than in today's economy. Many rural 
districts would simply be unable to compete, as they do not 
have staff to write grant proposals. Instead of winners and 
losers, all districts should receive the resources they need to 
succeed.

                           PREPARED STATEMENT

    My bottom line today is that Iowans expect our schools and 
our teachers to receive the support they deserve. Please give 
us those resources, and I promise that we will attract and keep 
the brightest educators, and we will continue to educate the 
future of this great Nation.
    Thank you.
    [The statement follows:]
                    Prepared Statement of Chris Bern
    Thank you, Chairman Harkin, Ranking Member Cochran, and the members 
of the subcommittee for allowing me this opportunity to speak before 
you today. I applaud you, Chairman Harkin, and your subcommittee for 
holding this hearing today to discuss the urgent need for continued 
investment in education jobs. This hearing couldn't be timelier, as 
immediate action is needed to jumpstart local economies, and keep our 
schools fully staffed at a time when many students and families are 
experiencing great stress.
    My name is Chris Bern and I have been a public school teacher in 
Iowa for more than 30 years. I began my career teaching middle school 
math in Woodbine and moved to Knoxville, where I taught math at the 
high school, alternative high school, and middle school level over the 
years. Two years ago I was elected to serve as President of the Iowa 
State Education Association. I am proud to represent 34,000 dedicated 
educators in more than 350 school districts across Iowa.
    We are fortunate in Iowa to have some of the best public schools in 
the country. We have a long history of attracting the best and the 
brightest to teach in our schools and we have the graduation rates to 
prove that we are doing our jobs well.
    If educators are given the proper resources and supports, the sky 
is the limit on learning for our students. Study after study proves 
that the most important factors in a student's ability to learn are the 
skills and knowledge of teachers and education support professionals.
    Yet today, in Iowa and across our country, scores of talented, 
experienced teachers and education support professionals are at risk of 
losing their jobs due to historic State and local budget deficits. In 
fact, this spring, Iowa's teachers were faced with the threat of 
massive ``pink slips'' as the State's proposed budget dipped well below 
what schools' needs were. School superintendents throughout the State 
threatened massive layoffs as American Recovery and Reinvestment Act 
(ARRA) money was used up and State money did not fill in the gaps.
    I am very worried about what this means for our economy, as scores 
of research and common sense tell us that investments in education are 
inextricably linked to economic strength. More importantly, however, I 
am worried about what it means for our students.
    In our experience there are only two outcomes for a school district 
facing massive job losses: larger class sizes or the elimination of 
programs, both of which are detrimental to students. In Iowa and across 
the country, school boards and superintendents have released proposals 
to increase class sizes, and reduce program offerings. In Iowa, music, 
arts, and physical education programs were all on the chopping block. 
Class sizes ballooned and ``excess'' positions were proposed for 
elimination. Not surprisingly, parents and other concerned Iowans have 
been in an uproar, because they realize that Iowa's children will 
suffer. Iowans have gotten a glimpse of what these job losses might 
mean for their kids and they don't like what they see.
    Not one fewer student is coming through our doors because of the 
economic crisis. They still need us to be there helping them, inspiring 
them, and educating them every single day. The education jobs crisis is 
not only about adults, it is about our children, who get only one shot 
at an education and didn't ask to go to school during this time of 
economic crisis. Little Johnny still deserves the same quality 
education his sister got when she walked through our doors during 
better times.
    We got a small break this spring as our State revenue picture 
improved slightly. In the end though, the layoffs and the other cuts 
are expected to be as drastic as predicted. The picture will be clearer 
by the end of this month when our State requires layoff notices to be 
sent. But we know it will not be a pretty picture. We anticipate the 
number of teachers and education support professionals who will receive 
pink slips to be as high as 1,500. That's almost 4 percent of our 
education professional workforce in Iowa. That number doesn't even take 
into account the number of positions which will be lost due to 
retirements and attrition.
    The education investment in the ARRA was critically important to us 
in Iowa. It funded 6,715 education jobs in Iowa--teachers, librarians, 
nurses, support workers, as the most recent Department of Education 
report shows. Close to 5,000 of those jobs came as a direct result of 
the aid in the State Fiscal Stabilization Fund (SFSF). We desperately 
need this aid extended before the next school year.
    I want to tell you about one of my colleagues whose job was saved 
because of ARRA.
    Recently, we spoke to a special education teacher in Iowa City who 
was pink slipped last year. She split her time in two schools working 
with students needing individual educational assistance. Without her 
position, these students wouldn't get the one-on-one assistance and 
would most certainly fail. ARRA saved her job. She is now employed full 
time at Penn Elementary and continues her work with special needs 
students. What would the classroom be like without her and others like 
her? Who would help these students?
    We asked if she had lost her job last spring, would she have left 
the profession. She didn't know. We cannot afford that collateral 
damage either.
    So, how can the Senate help?
    First, the Senate needs to act quickly on an education jobs 
package. As you know, last December, the House of Representatives 
passed a jobs bill that included $23 billion for an Education Jobs 
Fund--essentially an extension of the SFSF in the ARRA. We project that 
bill would provide Iowa with enough emergency aid to help save or fund 
as many as 4,900 education jobs. Needless to say, this could go a very 
long way in helping to avert the crisis that is right in front of us.
    My colleagues back home asked me to come here to deliver a strong 
message--please act now to approve additional Federal aid targeted to 
help avert the looming layoffs that will reach into almost every Iowa 
community, threatening our economic recovery and our students' 
education.
    Leaving States to cut education more deeply--and we already are cut 
to the bone--without additional Federal aid is short-sighted. Lessening 
the quality of education a student receives today as a result may prove 
irreversible. Long-term productivity growth and a higher standard of 
living are dependent on an educated workforce.
    Second, I want to ask the Senate to look very closely at the 
administration's proposal to use competitive education grants to 
allocate Federal money. Formula grants provide a solid foundation for 
the resources needed to ensure a quality education. While that 
foundation has always been important, it has never been more so than in 
today's difficult economic climate. Our schools need a level of 
certainty and stability in funding that they can count on, without 
having to divert scarce time and resources to grant applications. Many 
of our rural districts would simply be unable to compete, as they do 
not have the staff to write grant proposals. We believe a competitive 
system serves only to create funding winners and losers, rather than 
providing all districts the resources they need to succeed.
    Chairman Harkin, Ranking Member Cochran, and the members of the 
subcommittee, my bottom line today is that Iowans expect our schools--
and our teachers--to receive the support they deserve from the Federal 
and State governments.
    A lot of very smart people in Washington often talk about the next 
best thing to solve our Nation's education crisis. But, the answer 
isn't the next ``silver bullet'' to raise all test scores. It isn't the 
next greatest strategy to raise kids' reading skills. And, it isn't 
some magical test that will suddenly unlock every student's learning 
potential and every teacher's worth. I want to make one thing crystal 
clear: Teachers are not the problem here. We are the solution. We have 
been in the classroom each and every day teaching students. We just 
need the resources to do our work.
    So, please give us those resources to help ensure the fiscal 
stability of our educational system, and ensure that our schools stay 
fully staffed and I promise that we will attract and keep the best and 
brightest educators and we will continue to educate the future of this 
great Nation.
    The road to economic stability and prosperity for Iowa and our 
Nation runs through our public schools, and each and every student 
deserves the best we can offer.
    Thank you for the opportunity to provide this testimony.

    Senator Harkin. Thank you very much, Chris.
    And now we will turn to Dr. Joe Morton.
STATEMENT OF JOSEPH B. MORTON, Ph.D., STATE 
            SUPERINTENDENT OF EDUCATION, ALABAMA STATE 
            DEPARTMENT OF EDUCATION
    Dr. Morton. Thank you, Chairman Harkin.
    My own Senator, Mr. Shelby, thank you.
    Thank you for inviting me to testify before the 
subcommittee today on the current fiscal crisis facing the 
States and its impact on education-related jobs across the 
country.
    I am Joseph B. Morton and have been introduced as State 
superintendent of education, and I am here representing 
Alabama. But also I represent the Council of Chief State School 
Officers, which is an organization that represents 50 State 
superintendents of education, the District of Columbia, the 
Department of Defense Education Activity, and 5 U.S. extra-
State jurisdictions.
    And I am here to offer full support for a $23 billion jobs 
bill for education on behalf of my organization and my State. 
We need this money to keep our educators working.
    Unfortunately, as we all realize, State budgets lag behind 
a national recovery. In fact, in the Rockefeller Institute of 
Government report recently released, tax collections have 
declined for four consecutive quarters across the United States 
in State budgeting.
    States are now in the process of developing and finalizing 
fiscal year 2011 budgets. And without some kind of quick and 
near-term action, this continuing fiscal crisis will result in 
additional job cuts at a time when the Nation and Congress are 
centrally focused on the need for job creation and retention.
    I call your attention to my home State, as my own Senator 
Shelby has so eloquently already described, a State that is 
dependent on and very aware of the sensitivity to the economy 
because our educational activities in Alabama are funded on a 
statewide 4-cent sales tax and individual and corporate income 
taxes. So as the economy moves, so moves educational funding in 
Alabama.
    And as Senator Shelby outlined, we thought we were in good 
times in 2008 because in the spring of 2007, as we developed 
that 2008 budget, we had a record education budget of $6.7 
billion. We had 3.4 percent unemployment, which is still 73,000 
people. But it was low, and we thought things were good, and 
then the bottom fell out.
    And here we are today, $1.2 billion less in State funding. 
One point two billion dollars out of a $6.7 billion budget has 
gone away in State funding.
    Our schools and our State's schoolchildren and their 
families are hurting, and Alabama is not alone. Our 
unemployment rate today of 11.1 percent is 227,000 people that 
cannot find work. That impacts the education funding for our 
State.
    As of Monday of this week, I completed a survey of all 132 
school districts in my State, and based on the budget that was 
adopted last week by the Alabama Legislature, I asked local 
superintendents of education to tell me how many jobs would be 
cut based on that budget. My response came back, regrettably, 
that as our student population is increasing, we will lose 
1,599 teachers and administrators, and 1,228 support workers. A 
total of 2,827 fewer jobs in August of this year, as opposed to 
today.
    We know the California situation. We know that in Illinois, 
it is just as bad. Ten thousand layoffs already in Illinois, 
and another 10,000 predicted. We know that layoffs are all 
relative to the size of the district. I can tell you in our 
State of Alabama, there are counties that if they lay off 12 
people, that is equal to 1,200 in some districts. It is 
relative to the situation, and we have virtually every district 
in our State laying off people.
    Education, as we know, is a long-term investment. It 
strengthens the Nation's economy and, over time, provides a 
strong return on investment. We know that we need a jobs bill. 
We know that the ARRA, especially the SFSF, worked in our 
State, and it worked across this Nation.
    The University of Washington found that 342,000 jobs were 
funded by that ARRA. And we know in Washington State, 2,700 
jobs; South Carolina, 5,000; and in Alabama, we know that we 
can save with the continuation of that act 2,772 jobs.
    We have elected in our State to split the current ARRA SFSF 
over 2 fiscal years so we would avoid the worst of the funding 
cliff, and it still was not enough. Even with that, even with 
our budget of 2011 including one half of our SFSF, we still 
will lose 2,700 jobs.
    So, with that, may I conclude by saying that my 
association, the Council of Chief State School Officers, also 
supports in principle the blueprint for reform, but we have 
some questions. We have some interest in the detail of that, 
and at the expressed desire of the chair, I won't go into that 
at this time since this is more focused on a jobs bill.

                           PREPARED STATEMENT

    But let me conclude by saying that not only is it my strong 
personal--I offer my strong personal support, but I offer the 
support of 50 State superintendents of education for a jobs 
bill in our Nation and soon.
    [The statement follows:]
                    Prepared Statement of Joe Morton
    Chairman Harkin, Ranking Member Cochran, Senator Shelby, and 
members of the subcommittee, thank you for inviting me to testify 
before the subcommittee today on the current fiscal crisis facing the 
States and its impact on education-related jobs across the country. My 
name is Joe Morton and I am here today in my capacity as State 
Superintendent of Education for the great State of Alabama and as a 
member of the Council of Chief State School Officers, a national 
organization representing the State superintendents in all 50 States, 
the District of Columbia, the Department of Defense Education Activity, 
and 5 U.S. extra-State jurisdictions.
    As my time is limited, I will get right to the point, State 
governments continue to struggle with the budgetary challenges 
associated with the severe economic downturn this Nation has been 
facing since 2007. I'm here today in strong support of the House-passed 
Jobs for Main Street Act and its $23 billion extension of the State 
Fiscal Stabilization Fund. Schools need additional funding now or 
school boards will be forced to cut teaching and other key positions in 
our public schools. Fewer teachers in the classroom will only frustrate 
needed reforms in the Nation's persistently lowest-performing schools 
and the improvements that schools must make to ensure that all students 
leave high school ready for college and careers.
    Unfortunately, State budgets lag behind any national recovery by a 
year or more, so even as we are beginning to see economic growth at the 
national level, much State fiscal turnaround may still be some time 
away. In point of fact, the Rockefeller Institute of Government 
reported that State tax collections have declined for four consecutive 
quarters. Due to these revenue declines, 36 States were forced to cut 
more than $55 billion for fiscal year 2010 and 30 of those States cut 
both K-12 and higher education. Since the start of this recession, 
States have reported total estimated budget gaps of almost $430 
billion, and the Center for Budget and Policy Priorities reports 
remaining budgetary gaps of more than $140 billion just for the 
upcoming fiscal year.
    States are in the process now of finalizing their budgets for 
fiscal year 2011. Without near-term action, this continuing fiscal 
crisis will result in additional jobs cuts at a time when the Nation 
and Congress are centrally focused on the need for job creation and 
retention.
    I call your attention to my home State as a prime example of what 
is so prevalent in many States. Alabama is unique in many ways, but one 
is that it has two budgets to operate all State- supported agencies, 
programs, and institutions. The General Fund Budget funds all State 
agencies such as transportation, prisons, Medicaid, public safety, etc. 
The education budget funds all State-supported education endeavors from 
Pre-K to medical schools. Both funds have dedicated State taxes to 
support annual appropriations from the Alabama Legislature.
    In looking at education funding and personnel issues, one only has 
to look at the last four education budgets approved by the Legislature 
and to correspondingly look at State-unemployment figures for the same 
fiscal years. Realizing that the two largest education revenue sources 
used for funding the education budget are a statewide 4 cent sales tax 
and personal and corporate income taxes, it is readily apparent that 
the State education funding is directly tied to current economic 
conditions. Accordingly, if State revenues are lagging then 
correspondingly one would assume local school system revenues are 
lagging also. Of the 132 school systems in Alabama, 60 have established 
lines of credit from local banking institutions and either currently 
use this financial tool or will use it this fiscal year in order to 
meet payrolls and keep current on their monthly expenses.
    Funding for the past 4 fiscal years and the unemployment rates for 
those years shown on the following chart give a very clear and vivid 
indication as to why State education funding is in crisis in Alabama 
and why a jobs bill approved by Congress would be vitally important to 
educational progress in Alabama and across the Nation:

 ALABAMA EDUCATION BUDGETS AND UNEMPLOYMENT RATES--FISCAL YEAR 2008-2011
------------------------------------------------------------------------------------------------------------------------------------------------
Fiscal year 2008 Education budget           Unemployment rate in Alabama
(Adopted Spring 2007)                       (February 2007)
$6,729,089,656                              3.4 percent--73,551 people
------------------------------------------------------------------------
Fiscal year 2009 Education budget           Unemployment rate in Alabama
(Adopted Spring 2008)                       (February 2008)
$5,693,326,351 (Includes a mid-year 11      4.1 percent--88,972 people
 percent reduction of funds)
------------------------------------------------------------------------
Fiscal year 2010 Education budget           Unemployment rate in Alabama
(Adopted Spring 2009)                       (February 2009)
$5,322,329,577 (Includes a mid-year 7.5     8.7 percent--187,149 people
 percent reduction of funds)
------------------------------------------------------------------------
Fiscal year 2011 Education budget           Unemployment rate in Alabama
(Adopted Spring 2010)                       (February 2010)
$5,495,772,478                              11.1 percent--227,717 people
------------------------------------------------------------------------

    A State survey conducted by my office of all 132 school systems, 
which concluded on April 12, 2010, indicates that even with a State-
adopted education budget for fiscal year 2011, which includes the use 
of State Fiscal Stabilization Funds, there will be 2,827 fewer jobs in 
Alabama's K-12 public schools in August 2010 than exists today, even as 
the student enrollment increases. This is why Alabama educators support 
a jobs bill.
    Sadly, Alabama is not unique in this alarming regard. As has widely 
been reported, California sent 23,000 pink slip notifications out just 
last month. Illinois has already announced close to 10,000 teacher 
layoffs with an additional 10,000 predicted. Just 4 school districts in 
Mississippi combined to lose 160 teachers and a single school district 
in Wisconsin is planning to cut 50 jobs.
    In addition to the near-term impact these cuts will have on 
individual students, the reductions will also harm the Nation's 
productivity. Education is a long-term investment that strengthens the 
Nation's economy over time and provides a strong return on investment. 
For example, a recent study by the Alliance for Excellent Education 
found that cutting the dropout rate in the Nation's 50 largest cities 
in half would lead to $536 million in increased tax revenue, an 
additional $2.8 billion in spending and more than $4 billion in 
increased earnings per year. Given these profound figures, education 
must be among the highest-priority investments for the country even 
during challenging budgetary times.
    There is no doubt in my mind that the current crisis would have 
been far worse if not for the significant education funding provided by 
Congress for the American Recovery and Reinvestment Act and the State 
Fiscal Stabilization Fund (SFSF) more specifically. What we know is 
that SFSF worked. A recent study by the Center on Reinventing Public 
Education at the University of Washington found that more than 342,000 
jobs are funded by the Recovery Act. SFSF funds paid for 2,700 
education jobs in Washington State alone and almost 5,000 in South 
Carolina.
    Since we know that the SFSF worked, an extension is not only 
logical but urgently needed to help sustain our commitment to education 
reform and improvement. Estimates of the proposed SFSF extension would 
provide an additional $345 million for the State of Alabama, funding an 
estimated 4,150 education jobs. New Hampshire would see an additional 
$95 million and save 2,000 jobs, and Tennessee would see almost $450 
million for an estimated 1,700 education jobs. In total, the House-
proposed extension would fund 250,000 education-related jobs across the 
country.
    In spite of the current economic crisis and the challenges facing 
State governments, American education is experiencing a period of 
significant transformation and reform. States are focused like never 
before on strengthening standards and assessments, improving systems of 
educator development, and developing comprehensive data systems and the 
next generation systems of learning. As you know, CCSSO, in 
collaboration with the National Governor's Center for Best Practices, 
is close to finalizing the common core standards for college and career 
readiness in Mathematics and English Language Arts. This historic step 
is but one of many groundbreaking reforms that States are undertaking 
to develop coherent birth-to-20 high-performing systems of 
comprehensive reform that promote continuous improvement at all levels 
of the education spectrum.
    To make these efforts fully come to fruition though, we need a 
stable funding stream and a new State-Federal partnership--through the 
reauthorized ESEA--to help ensure Federal investments keep pace with 
the changing landscape and the increased role of the State as leading 
comprehensive reform. The President's proposed budget is a strong 
starting point, but State chiefs would like to highlight several areas 
in need of greater investment.
    First, current funds for student assessments are woefully 
inadequate to develop high-quality summative assessments, let alone to 
develop the next generation of formative and interim assessments. The 
$350 million Race to the Top Assessment set-aside is appreciated, but 
long-term funding is needed within ESEA to implement and sustain any 
product of this new competition.
    Second, States recognize the need for focus and attention on the 
persistently lowest-performing schools through concerted school 
improvement interventions. But as SEAs now play the central role in 
providing technical assistance and other supports to their struggling 
districts and in many cases directly intervene in schools that are 
chronically underperforming, States are very hopeful that Congress will 
provide additional resources. Building State-level capacity is an 
essential component to statewide school turnaround.
    Third, State chiefs understand and appreciate the value of new 
competitive grant programs as a catalyst for driving reform, but we 
implore the Congress to view those increases as above and beyond core 
funding for key formula programs like title I, IDEA, and State 
Longitudinal Data Systems. These investments are needed to ensure that 
all students, regardless of income, race, special needs, or other 
characteristics, are receiving a high-quality education.
    Lastly, let me say that State chiefs strongly support the 
Department's proposed consolidation of programs into 11 more coherent 
funding streams. Such an approach will provide States with increased 
flexibility to target resources toward the greatest areas of need. This 
change will certainly enable States to better allocate Federal 
resources and will also eliminate redundant reporting.
    In closing, let me again issue my strong personal support and that 
of the other chief State school officers around the country for an 
education jobs fund. It is needed and it will pay dividends.
    Thank you again for inviting me to testify before the subcommittee 
today. I look forward to answering your questions.

    Senator Harkin. Thank you very much, Dr. Morton.
    Dr. Morton. Thank you.
    Senator Harkin. Very eloquent statement. And now we turn to 
summarize things up here, Mr. Herzog. Welcome.
STATEMENT OF MARC S. HERZOG, CHANCELLOR, CONNECTICUT 
            COMMUNITY COLLEGES
    Mr. Herzog. Thank you, Chairman Harkin, Ranking Member 
Cochran, and distinguished members of the subcommittee, we 
thank you for this opportunity to appear before you today.
    My name is Marc S. Herzog, and I am the chancellor of the 
Connecticut Community Colleges. I am also here today on behalf 
of the American Association of Community Colleges, which 
represents the Nation's approximately 1,200 community colleges, 
which are currently enrolling almost 8 million students.
    The Connecticut community college system is a State system 
of publicly supported 2-year colleges. This is a precarious 
time for community colleges. Our ability to sustain the current 
level of education services and to respond to the enormous 
demands being placed on us carries with it a profound long-term 
economic implication.
    Community colleges play a significant role in the education 
and skill building of the American workforce. And certainly, 
that has been recognized by President Obama, who has challenged 
community colleges to graduate 5 million more students by the 
year 2020.
    Enrollments in the Nation's community colleges have surged 
dramatically during this recession. Credit enrollments have 
risen in the last 2 years by 16.9 percent. That is 1.2 million 
students. These dramatic enrollment increases have caused our 
colleges to literally scramble to expand our course offerings 
and student support services while undergoing cuts in public 
funding, which have been averaging 4 percent per year in each 
of the last 2 years.
    Despite every budgetary strategy imaginable, doing more 
with less, we believe that hundreds of thousands of individuals 
have effectively been denied access to community colleges over 
the last 2 years because of the lack of availability of program 
offerings. This is really a national tragedy because community 
colleges serve students who frequently have no other option to 
attend college but a community college.
    Let me turn to the situation in Connecticut, since it 
reflects what is actually occurring nationally. Let me also add 
that there are many 4-year public institutions in higher 
education that face a similar situation.
    Connecticut's community colleges are serving more than one-
third more students today than we did a decade ago. We have an 
increase of more than 58 percent in full-time equivalent 
enrollment. That is actually the measure of the amount of 
teaching that is going on in our classrooms today of a count of 
credit hours.
    We serve 50 percent of the undergraduates in public higher 
education, and we serve two-thirds of the minority students 
attending public higher education. Last fall, our enrollments 
grew by 10 percent at a time when our system budget declined by 
more than 10 percent.
    Our State general fund support for public higher education 
is funded at maintenance of effort level in compliance with the 
ARRA SFSF. The Federal ARRA SFSF in Connecticut was used to 
preserve educational services in the K-12 sector. But despite 
the stimulus funding, the State of Connecticut today, this 
fiscal year, is still facing a $500 million deficit with a $700 
million adjustment still necessary for the next fiscal year, 
fiscal year 2011. And the State is expected to face a $4 
billion shortfall in the next biennium.
    Given this and similar situations across the country, we 
need to help avoid I believe what you termed earlier, Senator 
Harkin, the cliff. We support and urge the enactment of a Keep 
Our Educators Working Act, which dedicates $23 billion to 
retaining, hiring, and training educational personnel. At 
almost 70 percent of the total budget for community colleges 
are devoted to labor costs, this legislation becomes critical 
for our institutions.
    Mr. Chairman, we thank you for your leadership on this 
issue and for recognizing the importance of supporting public 
K-12 and higher education in our hour of extreme need. We 
believe that without substantial Federal investment in 
education jobs, that faculty, academic, and institutional 
support staff and administrators will be laid off in many 
States. But more importantly, thousands of students of all ages 
will lose opportunities to gain education and skills needed to 
turn around our economy and to contribute to America's future 
prosperity.
    We understand the tremendous constraints that Congress is 
operating under, but we see no alternative to some form of 
Federal assistance.
    Finally, in addition to the Keeping Our Educators Working 
Act, there are numerous Federal education and workforce 
programs that are essential to community colleges. Let me just 
comment very briefly on three.
    The Pell Grant program, which we are thankful to this 
subcommittee for your support. Pell Grants provide the 
opportunity to attend higher education for a significant 
portion of our population. One-third of the population today 
receiving Pell Grants attend an American community college.
    The strengthening institutions program included in the 
title III act of the Higher Education Act, this program will 
clearly provide a great force for institutional improvement.
    And last, the Career Pathways Innovation Fund, which the 
Obama administration has proposed eliminating, this program, 
under its previous name, the Community Job-Based Training 
Grants Program, has had a very positive impact on community 
colleges and our local economies, and it would be very 
shortsighted to terminate it.

                           PREPARED STATEMENT

    Mr. Chairman, I thank you for this opportunity to appear 
before you today, and I certainly would be happy to respond to 
any questions you might have.
    Thank you.
    [The statement follows:]
                  Prepared Statement of Marc S. Herzog
    Chairman Harkin, Ranking Member Cochran, and distinguished members 
of the subcommittee, thank you for the opportunity to appear before you 
today. My name is Marc S. Herzog and I am the chancellor of the 
Connecticut Community Colleges.
    The Connecticut community college system includes 12, 2-year public 
colleges with a shared mission to make educational excellence and the 
opportunity for lifelong learning affordable and accessible to all 
Connecticut citizens. The colleges provide general education programs 
for career enhancement; transfer programs to expand access to 4-year 
degrees; developmental education programs to reduce academic barriers; 
student services to enhance student success; community service 
programs; and career education for jobs in such areas as nursing and 
allied health, information technology, emergency services, and early 
childhood education. Together these colleges provide the State of 
Connecticut with a solid, statewide foundation for higher education and 
workforce development.
    I am here today on behalf of the Connecticut Community Colleges and 
the American Association of Community Colleges (AACC), which represents 
the Nation's 1,177 community colleges. Rising enrollments, declining 
State and local funding, and the economic freefall have presented a 
veritable crisis for our colleges. Without substantial financial 
investments in education jobs, not only will faculty and administrators 
be laid off in many States, but thousands of students of all ages will 
lose opportunities to gain the education and skills needed to turn 
around our economy and contribute to America's future prosperity.
                            enrollment surge
    Typically, enrollments in postsecondary education increase during 
difficult economic times. Enrollments at the Nation's community 
colleges have surged dramatically, with credit enrollments rising 16.9 
percent over the last 2 years, to approximately 8 million credit 
students, just under half of the Nation's undergraduates. Full-time 
enrollments (FTEs) increased by 24 percent over the same period. These 
unprecedented enrollment increases have been fueled both by new high 
school graduates and adult learners returning in droves to community 
college classrooms.
    For younger students and their families, lower tuitions at 
community colleges make them an affordable option; the average tuition 
for a full-year, full-time student is just $2,544, which enables most 
community college students to avoid debt entirely. For older students, 
unemployment and threats of job loss reinforce the importance of 
college degrees and new skills training to secure employment in today's 
highly competitive market. Both new graduates and adult learners 
benefit from the partnerships community colleges continue to forge with 
business and industry.
    These dramatic enrollment increases have presented many challenges. 
Colleges have been scrambling to expand their course offerings despite 
serious budget constraints, and students have learned that they must 
apply early for financial aid and register in advance for classes. 
Nevertheless, we believe that hundreds of thousands of individuals have 
effectively been denied access to community college over the last 2 
years due to the unavailability of program offerings. This is a 
national tragedy. While very few community colleges cap enrollments or 
admissions outright, this is done in the de facto policy when students 
cannot access the programs they need.
    These access issues carry with them profound long-term economic 
implications for the country. On average, community college graduates 
earn 23 percent more annually than those who only hold a high school 
diploma.
    In Connecticut, community colleges are serving more than one-third 
more students than they were a decade ago, with double digit increases 
in enrollments system wide this academic year. Community colleges serve 
as the point of entry into higher education for more than 50 percent of 
Connecticut's undergraduates in public higher education, including two-
thirds of the State's minority undergraduates. Last fall, a record-
breaking 55,112 headcount students registered for credit courses at the 
Connecticut Community Colleges. Another 35,000+ students will enroll in 
noncredit programs throughout the year with approximately 50 percent of 
these students focusing on acquiring the skills required by the State's 
employers and the workforce of the 21st century.
                state budget crisis and stimulus funding
    The economy in Connecticut, the State budget and the budget for 
higher education, continue to face enormous challenges, particularly 
within the community college sector where enrollment growth has 
consistently exceeded that of other public and private colleges. In 
Connecticut, our college funding comes from tuition and fees, Federal, 
State, and private grants, and the State's general fund. Last fall 
enrollments grew by approximately 10 percent at a time when the college 
system's budget had declined through reductions and rescission by more 
than 10 percent.
    The Connecticut community college system budget for the current 
year is just below the fiscal year 2008 funding level. State general 
fund support for public higher education is funded at maintenance of 
effort levels in compliance with the American Recovery and Reinvestment 
Act (ARRA) State Fiscal Stabilization Funding (SFSF) requirement. 
Federal ARRA State fiscal stabilization funding was used to preserve 
the State's educational services in the K-12 sector. Despite the influx 
of Federal stimulus funding, the State is facing a $500 million deficit 
in the current fiscal year with a shortfall of $700 million projected 
for the fiscal year 2011. In the 2012-2013 biennium, with stimulus 
funding exhausted, the State will face a $4 billion deficit.
    The Connecticut community colleges have exerted extraordinary 
efforts to absorb and serve the expanding enrollments and growing 
educational needs of the students who have turned to them in the last 2 
years--16.8 percent more FTE students since 2008, with a budget below 
the fiscal year 2008 level. While additional students bring added 
tuition revenues, they also bring increased demands that must be met 
with reduced resources. Colleges raise tuition modestly each year in an 
effort to balance student access and affordability with unavoidable 
cost increases.
    The capacity of our colleges is stretched to the breaking point and 
the continued growth that we anticipate in the next 2 years and beyond 
cannot be met without adequate funding support. Yet higher education is 
frequently looked to as the ``balance wheel,'' according to a report 
from the American Council on Education, in the State budget process, 
particularly when budgets are in decline and demand for services are 
growing. Unfortunately, the burdens of the current economy and the 
heavy weight of economic forecasts are pushing any attempt at balance 
beyond the tipping point.
    In virtually every State, community colleges as well as the 4-year 
public colleges and universities face State funding reductions. Despite 
rising enrollments, these State budget cuts have led to layoffs, 
furloughs, reduction in hours for adjunct faculty, and hiring freezes. 
Colleges are stretching services to the limit, and, in many places, 
turning students away.
    The ARRA SFSF has helped to blunt what would have been even deeper 
State budget cuts to education. According to a recently released report 
by the State Higher Education Executive Officers, 15 States used ARRA 
funds in fiscal year 2009 ``to cover operational shortfalls, accounting 
for 3 percent of total State and local support for higher education.'' 
In fiscal year 2010, SFSF funding comprised 10 percent of all higher 
education funding in 9 States. Community college leaders in several 
States report that ARRA funds have helped them avoid significant 
layoffs, temper tuition increases and serve more students. But, these 
same officials are deeply concerned that public higher education is 
facing a budget cliff with the expiration of ARRA funding. A few 
examples:
  --Community colleges in Iowa received $23.1 million from the SFSF and 
        $2.5 million from the government services funds (total of $25.6 
        million) in fiscal year 2010. There were no funds in fiscal 
        year 2009 and there are no funds for fiscal year 2011. These 
        funds were used to avoid layoffs and reduce tuition increases 
        in fiscal year 2010. As an example, for the July 1, 2009-March 
        31, 2010 time period, a total of 257 full-time equivalent 
        employees were retained as a result of this funding (401,106 
        hours worked). Even with this ARRA support, State 
        appropriations for community colleges will have decreased by 13 
        percent between fiscal year 2009 and fiscal year 2011.
  --In Colorado, ARRA funds were used to revert a 49.5 percent cut in 
        State appropriations to community colleges in fiscal year 2009-
        2010. ARRA funds and the ARRA maintenance-of-effort (MOE) 
        requirements will help to blunt cuts to the colleges in fiscal 
        year 2010-2011, though they still face a cut of 7.2 percent 
        that would have been 17.8 percent without ARRA funds. Looking 
        ahead to fiscal year 2011-2012, without the same MOE 
        requirements in place and having already expended its ARRA 
        funds, the Colorado community colleges fear deep cuts are in 
        store for them without another direct infusion of Federal 
        funds.
  --The Alabama Community College System received approximately $35 
        million in ARRA funds, split evenly between fiscal year 2010 
        and 2011. These funds have helped to mitigate (but not 
        eliminate) the need to raise tuition and fees and have saved 
        341 jobs. The ARRA funds have also allowed the Alabama system 
        to serve more students and avoid enrollment caps.
  --In Washington, $8.5 million in ARRA funds helped to restore a 9 
        percent cut to community colleges in fiscal year 2009-2010, 
        allowing them to serve 1,500 FTE students. ARRA funds and the 
        MOE requirements have also muted potential budget cuts for 
        fiscal year 2010-2011, but the colleges are still expecting a 
        4-5 percent cut. Here, too, college officials are very 
        concerned about profound budget cuts once the ARRA funds are 
        expended.
                          education jobs bill
    Given that State tax revenues are not likely to recover in time, 
community colleges and other public higher education institutions 
desperately need additional Federal resources to avoid this anticipated 
``cliff'' effect in many States. For this reason, AACC urges enactment 
of legislation containing an ``Education Jobs Fund,'' as in the 
legislation introduced today by Senator Harkin and the original House-
passed ``Jobs for Main Street Act.'' Action of this nature is needed in 
order to avert major cuts on many of our campuses, which in turn will 
lead to a further denial of access to our programs. Approximately 70 
percent of the total budgets of community colleges are devoted to labor 
costs. Without enactment of the ``Keep Our Educators Working Act'' or 
similar legislation, it is unclear how many community colleges will 
manage.
    The proposed legislation would create a $23 billion ``Education 
Jobs Fund,'' like that in the SFSF to help States and localities retain 
teachers and faculty. We appreciate the recognition of the importance 
of both K-12 and higher education funding in this legislation. Further, 
with the inclusion of MOE language, the legislation should ensure that 
the Federal investment in public education will achieve its full and 
intended impact.
                        fiscal year 2011 funding
    Numerous Federal education and workforce training programs are 
essential to community colleges and the students they serve, providing 
critical student financial aid, institutional support, and resources to 
train workers for highly competitive jobs. Many of these initiatives 
also help community colleges hire and retain faculty for specific 
programs. The recently enacted budget reconciliation legislation 
provides significant investments in Federal student aid and 
institutional assistance, as well as funding for the Community College 
and Career Training Grant program, a new Trade Adjustment Assistance 
program that was created (but not funded) by ARRA.
    The following represents some of the funding priorities for 
community colleges for fiscal year 2011.
                     the federal pell grant program
    A record number of students are relying on Federal Pell Grants. 
Nearly 9 million college students, approximately one-third of them 
attending community colleges, will receive Pell Grants in fiscal year 
2011. For community college students, the Pell Grant program remains by 
far the most important student aid program.
    Community colleges are grateful for the significant investments 
made in the Federal Pell Grant program under provisions contained in 
the recently enacted budget reconciliation legislation. These increases 
will enhance access and help students steer clear of debt. The 
Connecticut Community Colleges have disbursed $59.1 million in Federal 
Pell Grants this academic year, an increase of 59 percent in 1 year, to 
more than 21,000 students, an increase of 34 percent. More than 5,000 
of these Pell recipients were unemployed or had a spouse who was 
unemployed; and 13 percent of the dependent student recipients reported 
at least one parent was unemployed.
         federal student support services and institutional aid
    In addition to the Federal student aid and student support services 
(such as TRIO and GEAR UP), community colleges strongly support funding 
for institutional aid under titles III and V of the Higher Education 
Act (HEA). Two point fifty-five billion dollars of additional funding 
is provided for minority-serving institutions (MSIs) over the next 
decade in the recent budget reconciliation legislation. AACC continues 
to support funding for the MSIs and advocates for additional resources 
for the strengthening institutions program. Strengthening institutions, 
contained in title III-A of the HEA, tends to be overshadowed by other 
institutional aid programs, but is an extremely effective program that 
benefits from healthy competition each year.
            perkins career and technical education programs
    Perkins Career and Technical Education (CTE) programs are the 
largest Federal source of institutional support for community colleges, 
helping them to improve all aspects of cutting-edge career and 
technical education programs. In his fiscal year 2011 budget, President 
Obama proposed the consolidation of the tech prep program into the 
basic state grants and level funding of Perkins CTE. AACC supports the 
preservation of the tech prep program and increasing total funding to 
$1.4 billion for the Perkins CTE programs.
                    career pathways innovation fund
    AACC urges the subcommittee to continue to fund the Career Pathways 
Innovation Fund. This program, formerly the Community-Based Job 
Training Grants (CBJTG), serves a vital need by expanding the capacity 
of community colleges to train workers for jobs in high-demand, high-
growth industries. Since its inception in fiscal year 2005, this 
program has brought together community colleges, local businesses, and 
Federal workforce investment boards to prepare workers for employment 
in industries such as healthcare, advanced manufacturing, and 
technology. While the administration's budget proposed eliminating the 
program because it duplicated the proposed American Graduation 
Initiative (AGI), AGI was not enacted and the resources provided by 
this program, which provides both immediate training and some funding 
for longer-term program development, are sorely needed. AACC strongly 
supports the continuation of this program with at least $125 million in 
fiscal year 2011.
    Connecticut is the only State in the Nation to receive awards in 
all four rounds of the CBJTG program. Credit certificate programs 
combine academic and technical skills with occupational specialty 
courses developed with input from each industry to ensure relevance to 
employer needs. The most recent grant focuses on energy efficiency and 
conservation to advance Connecticut's Energy Vision, which mandates 
that, by 2020, at least 20 percent of Connecticut's power will be 
supplied by renewable sources.
    Grant funded initiatives have increased the number of students 
succeeding at the college level and entering growing fields of 
employment in the State. Connecticut Department of Labor data indicate 
that earnings for students in targeted degree programs served by two of 
the grants (nursing, respiratory care, physical therapy assistant, 
radiologic technician, and medical assistant) increased from $23,626 in 
2005 to $57,740 in 2008--a 144 percent increase.
                               conclusion
    Numerous studies show that there is a strong positive correlation 
between educational attainment and income. The average community 
college graduate earns about $7,000 more each year than someone who has 
only a high school education. The ``middle skills'' jobs for which 
community colleges provide preparation are expected to grow robustly 
over the next decade.
    Investments in education jobs provide both short-term and long-term 
benefits by preserving faculty jobs, expanding education and training 
opportunities at the postsecondary level, and helping Americans attain 
the postsecondary degrees and credentials that will drive our future 
economy.
    Thank you, Mr. Chairman and members of the subcommittee, for this 
opportunity to speak with you today.

    Senator Harkin. Thank you, Mr. Herzog. Thank you all very 
much for your eloquent statements.
    I think it is worth noting that we just heard from a 
teacher from Iowa; a superintendent from the second-largest 
school district in the United States, Los Angeles; a State 
school chief from Alabama; and a community college chancellor 
from Connecticut. You basically all said the same thing.
    The jobs crisis in education is real. This is not something 
``maybe if.'' It is happening right now, and it is real. And it 
is not just a problem in one State or one area. It is a problem 
nationally.
    Now, let me get to one point rapidly that came up earlier, 
and it will come up again. The bill that I am putting in today 
is deemed an emergency bill, which means it is not offset by 
spending cuts someplace else. We are in an economic mess right 
now.
    Some people have said, wait a minute, you are going to 
borrow from our kids and our grandkids to pay for this now? 
That shouldn't be. We are borrowing too much from our kids and 
grandkids.
    Well, quite frankly, I agree we are borrowing too much from 
our kids and grandkids. We have a terrible deficit problem, 
debt problem--debt and deficit problem. But it seems to me this 
is targeted only for education. How can you argue on the one 
hand that it is okay for a kid to borrow to go to college, but 
it is not all right to borrow to make sure that there is a 
college for the kid to go to? That there are teachers in our 
high schools and in our grade schools to prepare these kids for 
the future?
    It seems to me if there is one legitimate area where we can 
borrow from the future, it is in education. Because what kind 
of jobs will my grandkids and great-grandkids have if we don't 
have a well-educated group of young people today who will be 
providing the leadership and the technology and the innovations 
and the job creations and the business leadership that will 
provide those jobs in the future?
    So you can argue about borrowing from the future for this 
or that. There are a lot of legitimate arguments on that. Some 
of it I don't care much about either. But in this one area, it 
seems to me this is legitimate. To ask our unborn in the future 
to help pay for the education of their--of what will be their 
grandparents and great-grandparents today so that they will 
have a better future then.
    So I wanted to get to that because if we are going to get 
bogged down in taking money from here and there, and we are all 
in this mess right now, an economic mess. We will be here for 
the next 2 years, 5 years debating that.
    We have a real cliff problem right now. And as I said, it 
is happening. You testified it is happening. Pink slips are 
going out now. It is April, May. That is when the decisions are 
being made. We don't have the luxury of waiting--well, maybe 
this fall we will get to it. That is too late. Or next winter. 
That is too late.
    This is a real crisis that we have, and that is why I 
appreciate your sort of bringing this to a head from all 
different sectors--large, small, community colleges, chief 
State school officers all over this country--because it is a 
national problem.
    And I must as, as the chairman of this subcommittee and the 
chairman of the education authorizing committee, there is not 
enough being said about this nationally. It is sort of like it 
is there. We know it is going to happen and it is happening, 
but there is not much focus on that in the national press.
    I will tell you when the focus will happen. If we don't do 
anything and we wind up next fall, and all of a sudden classes 
are cut, school years are being decimated, and teachers are 
sent home when we don't have enough bus drivers to get our kids 
in rural Iowa to the schools because they had to lay off the 
bus drivers. When we have had to cut back maybe on school lunch 
programs because we can't hire the cafeteria workers.
    Oh, yes. You will get a lot of publicity then, folks. There 
will be a lot in the press, a lot on TV. And where was 
Congress? Where were we? Asleep at the switch?
    Well, we can't just respond to something simply because it 
is popular in the press right now. I think one of our 
obligations as elected officials is to anticipate, think about 
what we have to do now to keep from having these bad things 
happen down the road.
    Well, I have got 38 seconds left to ask a question. I 
guess, if anything, I would again ask you all just any general 
comments you have on who is going to be laid off and what you 
see out there if we don't act now? If you just have any 
response to that at all? You have kind of covered it, but if 
you have any specific things that you didn't mention in your 
testimony.
    Mr. Cortines.
    Mr. Cortines. No, I think we do have to look at all, and 
you have covered that. And even though I represent a very 
large, urban system, when you say ``all,'' that means rural 
America also. That means the mid-size also.
    And it does mean not just teachers and administrators, it 
means custodians and cafeteria workers and secretaries. It 
takes all of those wraparound services to make for a good 
comprehensive educational environment.
    Senator Harkin. Mr. Bern.
    Mr. Bern. And I would just add it is happening all over the 
State. I mean, we have teachers living in fear, not knowing 
whether they are going to have a job--not just teachers, 
support workers, bus drivers, cooks, secretaries, and everyone 
is living in fear right now because they don't know.
    Our legislature did pass a budget just recently, but before 
that, we had superintendents planning for the worst-case 
scenarios. And in Des Moines, they were talking about 300 job 
cuts. Thankfully, our legislature found some money, and so 
things aren't going to be quite as bad. But the Des Moines 
school system just passed a budget last night, and they are 
going to be cutting 171 positions. So help is desperately 
needed.
    Senator Harkin. When you said for our entire State, you 
mentioned 1,500?
    Mr. Bern. That is our estimate right now, 1,500 positions.
    Senator Harkin. Dr. Morton.
    Dr. Morton. I would just point out one thing. And I look at 
a jobs bill as an investment, and I know people worry about 
their 401(k)'s and their retirement. I think people in this 
Nation ought to worry about the dropout rate and who is going 
to work and are they going to be able to work?
    And with this jobs bill, we will have teachers that could 
stay on the job and work with young people to keep them in 
school. And if you look at the Alliance for Excellent 
Education, they have a model for every State, and what would be 
saved and what would be added back to the economy of that State 
if we could reduce our dropout rate and increase our high 
school graduation rate so they could go on to a community 
college or a 4-year college and get a job and be a productive 
citizen.
    And we know just from their information that if we could 
reduce the dropout rate by half in the 50 largest cities in 
America, it would increase the increased earnings per year by 
$4 billion, and that is just in 50 cities. So think of the 
Nation and what could happen with this investment, and that is 
the way I look at it, as an investment.
    Senator Harkin. Very good.
    Mr. Herzog. Senator, in our system, we have already lost 
177 people this year. The kinds of services that you lose are 
hours of access to a college library, laboratories, all of 
those academic instructional support services that students 
need.
    At the same time, where access to community colleges has 
never been greater, our goal is to have success at our 
colleges. And the very people that we need to support students 
are the very people that will go.
    Senator Harkin. Thank you all very much.
    I will go to my good friend, Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    I think it is very important, and you have done this, you 
have focused, among other things, on the loss of teachers and 
support and so forth. That is important. But we should never, 
never lose focus on the student. Of course, it is related to 
that, and nobody knows that better than the four of you.
    But because what do we care about? We care about everybody, 
but we care about that student getting a quality education to 
be ready for the workforce. And they are not going to get there 
on their own, and I think you are pointing that out.
    Dr. Morton, one of your initiatives, and I mentioned it 
earlier, and you got a lot of credit, and rightfully so, for it 
is the Alabama Math, Science, and Technology Initiative. And in 
light of our Nation, not just our State, but the whole Nation's 
need to stay competitive with other countries and try to be a 
world leader in math, science, and high biotech-related 
industries and research, what was your reaction to the Race to 
the Top application from the Department of Education and, my 
understanding, allocation of 15 out of 500 points to that 
topic?
    That seems to be low and is troubling to me, 15 out of 500 
points----
    Dr. Morton. Senator Shelby----
    Senator Shelby [continuing]. Which will drive the industry 
and the Nation and the world in the future.
    Dr. Morton. Our whole initiative was built on the fact that 
we think that America and Alabama students, their future is in 
math and science and technology.
    Senator Shelby. Absolutely.
    Dr. Morton. We know that President Obama campaigned on it. 
And I, quite frankly, was stunned when I opened the criteria 
for Race to the Top and had been--we had invested a lot of 
money and effort, and we are not going to back away from that 
investment. I think it is the right investment.
    Senator Shelby. You can't.
    Dr. Morton. We got Huntsville, and we got UAB in Birmingham 
and Mobile, and we are going to stay behind that investment. 
But I was stunned and disappointed to find that out of 500 
possible points for Race to the Top, only 15 points, 3 percent 
of the whole application dealt with science, technology, 
engineering, and mathematics, the STEM.
    I don't get--there is a disconnect there I don't----
    Senator Shelby. Absolutely. And it seems like it is upside 
down. This needs to be changed.
    Dr. Morton. It did not open the door for America to walk 
through and not be 20th or 25th in the world in 14-year-old 
math and science scores. If we are going to be number one, we 
have got to invest in engineering, mathematics, technology, 
biotech.
    And Race to the Top, $4.3 billion, allotted 3 percent, 15 
out of 500 points to that topic. I was very disappointed.
    Senator Shelby. I think it was a flawed program. You do, 
too, that it was?
    Thank you. Thank you, Mr. Chairman.
    Senator Harkin. Very interesting.
    Dr. Morton. Yes, sir. I would----
    Senator Harkin. You learn something new every day around 
here.
    Dr. Morton. I think our Nation would be honored if someone 
would kind of look into that.
    Senator Harkin. Well, I think we will look into that.
    Dr. Morton. Thank you.
    Senator Harkin. Okay. Let me get that. Five hundred points, 
and only 15----
    Dr. Morton. Three percent are on STEM--science, technology, 
engineering, and mathematics education.
    Senator Harkin. Hmmm.
    Senator Shelby. Mr. Chairman, I wish you, as chairman of 
this subcommittee, would look into this, and I think you will 
have a lot of support on both sides of the aisle, Democrats and 
Republicans.
    Senator Harkin. Well, Dick, let us work together. Let us 
find out. That doesn't sound--this shouldn't be. It should be 
higher.
    Senator Shelby. That is the way it is set out, isn't it?
    Dr. Morton. Yes, sir. That is the way the criteria break 
out.
    Senator Shelby. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Harkin. Well, thank you. Thank the panel. Thank you 
all very much, and we will do everything possible and ask for 
your continued involvement and help in this effort.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to Hon. Arne Duncan
            Questions Submitted by Senator Mary L. Landrieu
                            race to the top
    Question. The administration has requested $1.35 billion to extend 
the Race to the Top competition. In the first round of this year's 
competition, you selected only the States that demonstrated 
exceptionally high levels of statewide support from superintendents, 
school board presidents, teachers' unions, and charter schools. As you 
are well aware, real reform too often encounters resistance from some 
teachers' associations and school boards. Proven results are often the 
only meaningful way to convince the doubters. Therefore, I believe that 
supporting real reformers is a smarter strategy, whether or not the 
reform plan has near unanimous stakeholder buy-in.
    Also, there has been some discussion about the Race to the Top 
scoring process. For example, six first-round finalist applications--
including the application from my home State of Louisiana--saw a 
particularly wide gap between their highest and lowest scores. 
According to a recent report by The New Teacher Project, throwing out 
the highest and lowest scores of each State application would have 
dramatically changed the rankings for applications from finalist States 
like Louisiana and Georgia. Some have suggested that a broader range of 
reviewers could help to dampen the impact that only one negative review 
would have. Others have suggested clarifying whether the criteria are 
objective or comparative.
    As you approach Round Two of the Race to the Top and as we consider 
funding an additional $1.35 billion for next year, how might you change 
the evaluation criteria to support bold reform and ensure a fair 
scoring process?
    Answer. While I understand your concern about the potential for 
tradeoffs between, on the one hand, proposing serious reforms and, on 
the other, gaining stakeholder support, we believe that States should 
make every effort to both craft ambitious reforms and engage affected 
stakeholders and leaders in making the reforms a reality. We do not 
believe that ambitious reform and stakeholder support are mutually 
exclusive. It is important to note that, while the two phase 1 winners, 
Delaware and Tennessee, did have high levels of stakeholder support, 
this buy-in did not soften their reform efforts. It is also worth 
noting that a number of highly rated phase 1 States that fell just 
short of winning phase 1 awards had strong conditions and plans for 
reform with lower levels of stakeholder support. The message, I hope, 
is that we are not in favor of weakening reforms in order to strengthen 
stakeholder support; however, we do acknowledge that on-the-ground 
reforms in education, to be successful, require the active 
participation of school leaders, teachers, and other stakeholders. The 
Race to the Top criteria and scoring system are designed to incent and 
reward programs that are ambitious yet achievable.
    Regarding your concern about a single reviewer on a panel affecting 
the competition's outcome, I would observe that any diversity of 
opinions among reviewers was the product of a rigorous review process:
  --Each of the 58 reviewers was carefully chosen for his or her 
        expertise from a pool of approximately 1,500 applicants.
  --For tier 1, each reviewer spent roughly 30 hours reading each 
        application, and then discussed each application in detail with 
        his or her panel. To facilitate these discussions, we provided 
        each panel with a measure of the variation between individual 
        reviewers' scores for each criterion on that application. This 
        allowed reviewers to quickly identify and focus their 
        discussions on differences in scores, and to ensure that those 
        differences were based not on misunderstandings of the 
        criteria, but on legitimate disagreements as to the quality of 
        the State's responses.
  --For finalist States, reviewers had three additional opportunities 
        to discuss the applications: (1) the panels met to discuss the 
        questions they would ask of States during the Q&A session; (2) 
        reviewers asked questions of the State to clarify or validate 
        their scores and comments; and (3) following the State's 
        presentation and Q&A session, the panels met a final time.
    We believe that if, after going through such a rigorous process, 
one of these carefully selected experts believed that an application 
deserved a relatively higher or lower score than other reviewers on the 
panel believed it deserved, that professional opinion should not be 
ignored by the Department. Discounting the diversity in reviewer 
opinions or scores could exclude meaningful information that was the 
product of a thorough review process. To ignore or eliminate such 
information would be counterproductive to our goal of funding the 
highest-quality applications. Please also understand that, even if we 
had thrown out the highest and lowest scores in the phase 1 
competition, Delaware and Tennessee would have still been the two top-
scoring applications. Thus, taking that step would likely not have 
affected the outcome of the competition.
    Having said that, I agree that we might increase inter-reviewer 
reliability by improving our peer reviewer training. In phase 1 of the 
competition, we had no exemplar applications because the competition 
was brand new--thus, we could not ``anchor'' reviewers' understandings 
in any common activities. Using the information we gained during phase 
1, we plan to expand our reviewer training for phase 2 to include 
workshops in which reviewers read and discuss sample responses, 
practice the ``panel review'' process, and develop a deeper 
understanding of the criteria and scoring rubric. We expect these 
actions to improve the overall quality of both scoring and commenting.
    Finally, we are in the early stages of thinking about the criteria 
for a phase 3 of Race to the Top. We will work hard to ensure that all 
aspects of a phase 3, from the criteria to the reviewer training, are 
deeply informed by what is working, and what is not working as well, in 
Race to the Top and other Department programs.
                  teacher and leader pathways program
    Question. In the budget, you have proposed to consolidate a number 
of existing education funding streams into a few competitive programs. 
One program affected by this consolidation of funding streams is Teach 
for America, the national program that recruits outstanding college 
graduates to teach for 2 years in underserved schools. This program has 
been incredibly successful all over the country, particularly in my 
home State of Louisiana where we now have 608 corps members in 148 
schools reaching 38,500 low-income students.
    Right now, because of the enormous increase in applications that 
Teach for America is experiencing, it has the opportunity to double in 
size, but doing so will require a reliable funding stream. The timing 
of the proposed grant competition would not allow Teach for America to 
grow in 2011 or 2012--and they would be forced to reduce the size of 
the incoming corps.
    How do you propose to bridge this funding gap so that Teach for 
America can continue to grow and place effective teachers in the 
schools where they are needed the most during this upcoming school 
year?
    Answer. I share your admiration for the important role that Teach 
for America plays--as well as other alternative pathways to teaching 
programs--in helping high-need districts recruit candidates to teach in 
high-need schools. During the 2008-2009 school year, the last year of 
my tenure in Chicago, 248 Teach for America corps members were teaching 
in the Chicago Public School System and helping to raise the 
achievement and improve the lives of more than 25,000 students. The 
2010 appropriation of $18 million for Teach for America represents an 
increase of more than 20 percent above the funding it received in 2009 
under the Fund for the Improvement of Education. The Department expects 
to receive an application for these funds from Teach for America 
shortly and anticipates that it will be able to award the grant 4 to 6 
weeks later.
    For 2011, the administration has requested $405 million for a new 
Teacher and Leader Pathways program that would allow States and 
districts to create or expand teacher and leader preparation programs, 
including alternative routes to teaching like Teach for America. This 
creates an opportunity for Teach for America and other organizations 
committed to recruiting and supporting exceptional teachers to partner 
with States and districts to compete for significantly more funding 
than is currently available to them under the current system of 
smaller, often narrowly targeted programs. We recognize that a 
significant change like this creates uncertainty, but the 
Administration is committed to working with the Congress, States, 
districts, and other stakeholders, including Teach for America, to 
ensure that the implementation of this new program supports and 
enhances their efforts to improve education.
Investing in Innovation Program and Support for Teach for America
    Organizations like Teach for America are also eligible to compete 
for funding under the Investing in Innovation program, which supports 
the development and expansion of innovative practices to improve 
student achievement and close achievement gaps. Applications for the 
2010 competition were due on May 12, 2010. The administration has also 
requested $500 million for this program in 2011 to support another 
round of awards for exceptional, innovative programs. In addition, 
States may use funds received under the Race to the Top and under the 
proposed Effective Teachers and Leaders State grants program to support 
Teach for America projects.
                   teacher and leader innovation fund
    Question. The administration's request includes $950 million for 
the new Teacher and Leader Innovation Fund. How does the administration 
plan to encourage these States and LEAs to develop and use innovative 
teacher compensation systems under the proposed Elementary and 
Secondary Act (ESEA) reauthorization?
    Answer. The Teacher and Leader Innovation Fund would provide 
support for State and LEA efforts to develop and implement innovative 
approaches to human capital systems. It would support compensation 
reforms and complementary reforms of teacher and principal development 
and evaluation, teacher placement, and other practices. Grantees, 
selected competitively, would use program funds to reform teacher and 
school leader compensation and career advancement systems, improve the 
use of evaluation results for retention and compensation decisions, and 
implement other innovations to strengthen the workforce.
                         teacher incentive fund
    Question. How will the Teacher and Leader Innovation Fund work 
should it not be reauthorized?
    Answer. If authorized, the Teacher and Leader Innovation Fund would 
build on the strengths of the Teacher Incentive Fund (TIF). If Congress 
does not reauthorize the ESEA in time to govern the fiscal year 2011 
appropriation, the administration believes its requested increase for 
ESEA programs should be devoted to existing programs best positioned to 
reform K-12 education, such as the TIF, and would seek funding of $800 
million for this program, $400 million more than the fiscal year 2010 
appropriation, for continuation grant costs and approximately 100 new 
awards.
         charter schools--expanding educational options program
    Question. I was pleased to see that your budget request follows on 
President Obama's promise to increase support for charter schools. Your 
request includes a $54 million increase for Charter Schools Grants, 
even if ESEA is not reauthorized this year. Could you talk about how 
the administration plans to address the challenges charter schools face 
in securing facilities funding?
    Answer. The administration is proposing a new program that would 
replace current ESEA programs that support choice-based models of 
school reform as well as family outreach. The Expanding Educational 
Options program would include two separate grant competitions: (1) 
Supporting Effective Charter Schools Grants; and (2) Promoting Public 
School Choice Grants. Under the Supporting Effective Charter Schools 
Grants competition, State educational agencies, charter school 
authorizers, charter support organizations, charter management 
organizations, and other nonprofit organizations in partnership with 
LEAs would be eligible to apply for competitive grants to start or 
expand effective public charter schools and other effective autonomous 
public schools. The Department would work to ensure the creation of 
quality schools by selecting applicants based on their record of 
success in supporting, overseeing, or operating (depending on the type 
of grantee) effective charter and other autonomous schools, including 
their record of closing ineffective charter and other autonomous 
schools, as appropriate, and their commitment to starting schools that 
would expand options for students attending low-performing schools. In 
addition, the Department would give priority to applicants proposing to 
create or expand effective public charter schools.
    As part of this strategy, we believe it is crucial to continue to 
support State and local efforts to ensure that charter schools have 
adequate facilities. We are proposing in reauthorization that, rather 
than renew various separate programs for charter facilities, Congress 
allows a portion of funds (no more than 10 percent) from the Supporting 
Effective Charter Schools Grants program to be used to award grants to 
those programs that most effectively leverage Federal dollars to 
support charter school facilities. This could result in new funding for 
credit enhancement programs as well as other programs that support 
charter school facilities.
Charter Schools Facilities Programs
    The fiscal year 2010 appropriations act permitted the Department to 
use a total of $23,082,000 (from the appropriation for the Charter 
Schools Program) to continue the State Charter Schools Facilities 
Incentive program and the Credit Enhancement for Charter School 
Facilities program. From that amount, the Department intends to use 
$14,782,000 to make second-year continuation grants under the State 
Charter School Facilities Incentive program and $8,300,000 for Credit 
Enhancement for Charter Facilities program. The Department's proposed 
reauthorization also includes language that would ensure the continued 
funding of Facilities Incentive Grants to States made in fiscal year 
2009 for the remainder of their award period.
    Under the administration's fiscal year 2011 request for the 
Expanding Educational Options program, approximately $298,000,000 would 
be available for new charter schools awards and approximately 
$102,000,000 would be available for the continuation of multi-year 
charter schools awards made before reauthorization. At least 
$14,782,000 of that amount would be available for State Charter School 
Facilities grants and up to $40,000,000 in new awards could be 
available for programs that also support charter school facilities.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
      leveraging educational assistance partnership (leap) program
    Question. I have long worked to improve and fund the LEAP program. 
As such, I was disappointed that the President's fiscal year 2011 
budget eliminated funding for LEAP.
    Particularly during this economic downturn, why would the 
administration propose to eliminate critical need-based aid for low-
income students--a program that leverages millions of dollars in need-
based grant aid on the State level, and indeed the only program that 
serves to maintain a State role in providing such need-based grant aid?
    While we both are pleased that significant increases to Pell Grants 
were included in the recent student loan reform law, we still have a 
ways to go in meeting the financial need of students. Do you agree that 
we must leverage the ability of States, institutions, businesses, and 
philanthropic organizations to partner together and provide necessary 
aid and support for students and that the Federal Government cannot be 
the only player at the table when it comes to student aid and support?
    Answer. While providing critical need-based aid remains a priority 
to the administration, LEAP funding was not requested for fiscal year 
2011 because it was clear States have committed to sustaining their 
financial support for students. Since its authorization, LEAP has 
helped to increase State participation, both in terms of the number of 
States providing this aid and in the amounts they provide students. For 
example, in academic year 2006-2007, estimated State matching funds 
totaled nearly $1 billion. This is more than $950 million more than the 
level generated by LEAP's dollar-for-dollar match, and far more than 
would be required even under the 2-for-1 match under Special LEAP. This 
suggests a considerable level of State commitment, regardless of 
Federal expenditures, which is not expected to diminish absent LEAP 
program funding. In place of directing funds to LEAP, the 
administration believes in investing these limited resources in other 
need-based aid programs, including increasing the maximum Pell Grant 
award and providing $750 million to encourage greater college access 
through State and community innovation in the College Access Challenge 
Grants program.
                 college access challenge grants (cacg)
    Question. While you may offer CACG as an alternative source (to 
LEAP), how do you reconcile the fact that providing need-based grant 
aid is just one of many optional activities for State nonprofits in 
CACG and, as such, the Department's report from last year shows that 
only 9 of 50 States used CACG funding for need-based grant aid?
    Answer. While LEAP has been able to supply need-based grant aid 
specifically, CACGs provide more opportunity for participation by 
charitable and philanthropic organizations, as well as State and local 
governments to aid in the CACG work done by a State, including through 
providing financial resources to students. The program includes a match 
requirement of one-third of the cost of the activities which may come 
from philanthropic or other sources, incentivizing increased investment 
and collaboration. The recently passed Student Aid and Fiscal 
Responsibility Act (SAFRA) authorizes additional funds for the CACGs 
program, totaling $150 million per year through fiscal year 2014, 
providing a huge opportunity to develop promising new practices and 
create a data-driven approach for delivering on a college access 
strategy. The legislation also provides for an increased minimum award, 
such that nearly 20 States will see a quadrupling of their grant 
awards. This will allow for both increased State as well as nonprofit 
participation, and gives States more opportunity to be sources of need-
based grant aid for students.
                            school libraries
    Question. As you know, the Department's own evaluation of the 
Improving Literacy Through School Libraries program, released last 
year, found that it has been successful. For instance, the evaluation, 
which includes a discussion of the research showing the impact of 
improving school libraries on student achievement, found among other 
things that the program has improved the quality of the disadvantaged 
school libraries receiving the grants, as well as increased 
collaboration and coordination among teachers and school librarians on 
curriculum and related matters. Do you think the Federal Government 
should support initiatives that research has shown to be effective? 
And, if so, why does your budget seek to consolidate funding for a 
number of programs shown to be effective by the Department of 
Education's own evaluations, such as the Improving Literacy Through 
School Libraries program?
    Answer. The Department takes the findings of each evaluation 
seriously and believes that we should learn from promising practices 
and try to build on them. However, the evaluation report you mention 
also stated that some or all of the score increase may be associated 
with other school reform efforts. Consequently, the report concluded 
that no definitive statement could be made about the effect of 
participation in the program on reading assessment scores.
    The administration is proposing to consolidate the Improving 
Literacy through School Libraries program in order to make more 
effective use of the funding for literacy. Federal literacy programs 
have historically taken a fragmented approach. The administration 
believes State and local efforts to improve literacy will be more 
coherent and more likely to drive dramatic improvements in student 
achievement if they have a comprehensive pre-K-12 focus. States and 
districts could use funds from this larger, comprehensive program to 
expand school or classroom library services. This could include 
increasing library collections, opening library facilities for longer 
hours, or providing professional development to school librarians.
         guidance on use of federal funds to support libraries
    Question. You have on occasion, including in a letter to me, 
expressed the importance of well-resourced school libraries. Indeed, 
such well-resourced and well-staffed school libraries play an essential 
and vibrant role in amplifying the learning that goes on in classrooms 
and providing students with the critical thinking skills to evaluate 
and use information and ultimately gain knowledge. As such, did you 
provide any specific guidance to schools regarding using ARRA or ESEA 
funding to support school libraries and school librarians?
    Answer. In September 2009, the Department issued guidance entitled 
using title I, part A ARRA Funds for Grants to Local Educational 
Agencies to Strengthen Education, Drive Reform, and Improve Results for 
Students, which included information on how title I ARRA funds could be 
used to strengthen school libraries. This guidance specifies that ``In 
a Title I school operating a school wide program, Title I, Part A ARRA 
funds may be used to purchase library books if using the funds for that 
purpose is consistent with needs identified in the comprehensive needs 
assessment and articulated in the school wide plan.'' It goes on to 
provide clarification about how local educational agencies (LEAs) 
should first leverage State and local resources and about schools 
operating a targeted assistance program. This guidance document also 
states that expanding title I reading and mathematics resources and 
libraries may be an activity that LEAs can carry out in meeting the 
requirement to provide equitable services to private school students.
           effective teaching and learning: literacy program
    Question. How do you propose ensuring that investments in school 
libraries are made when evidence suggests that (1) libraries are among 
the first items cut from cash-strapped school budgets and (2) in the 
absence of a specific Federal investment, school libraries have 
languished, such as what occurred when the school library program 
included in the original ESEA was eliminated during the Reagan 
administration?
    Answer. The Effective Teaching and Learning: Literacy program would 
provide competitive State literacy grants to State educational agencies 
(SEAs), or SEAs in partnership with appropriate outside entities, in 
order to support State and local efforts aimed at implementing and 
supporting a comprehensive literacy strategy that provides high-quality 
literacy instruction and support to students. Local educational 
agencies could use their grant funds to expand their library 
collections, open their school libraries for longer hours, or provide 
professional development to school librarians. We believe that this 
would be the best approach to ensuring that school libraries and 
library services are supported as part of a comprehensive approach to 
improving student literacy.
                   teacher quality partnership grants
    Question. Last Congress, I helped author provisions in title II of 
the Higher Education Opportunity Act--the Teacher Quality Partnership 
Grants (TQP) program--to reform college teacher preparation programs, 
where more than 85 percent of new teachers are prepared each year. The 
final bill that included these provisions had overwhelming support--it 
passed the Senate 83-8 and the House 380-49. Congress spent more than 5 
years deliberatively crafting this program on a bipartisan and 
bicameral basis leading up to the reauthorization in 2008. The majority 
of the first grants through this program were just awarded earlier this 
month.
    Yet the administration has proposed to eliminate this program even 
though there has been no opportunity to prove its effectiveness. We 
have heard for many years that college teacher preparation programs 
need to be reformed. However, by consolidating TQP with a number of 
non-college-based teacher certification programs, there will be no 
guarantee that college teacher preparation programs receive funding to 
actually undertake the reform we both acknowledge needs to occur.
    How will eliminating the one guaranteed Federal source of funding 
for college teacher preparation programs help reform them in any 
systematic way?
    Answer. I see the administration's proposal to consolidate smaller, 
narrowly targeted programs into a Teacher and Leader Pathways program 
in which institutions of higher education would partner with States and 
districts to compete for funding as a natural extension of the teacher 
preparation reforms enacted in the Higher Education Opportunity Act. 
Under the Teacher Quality Partnership Grant program, institutions of 
higher education, in partnership with high-need districts and schools, 
compete for grants to support model teacher preparation programs that 
are accountable for recruiting highly qualified candidates, including 
minorities and individuals from other occupations, and training them to 
be highly qualified teachers who are prepared to meet the needs of 
high-need schools and districts. In 2009, we awarded $43 million in 28 
grants to support pre-baccalaureate and/or teacher residency programs, 
with $100 million in ARRA funds awarded in 2010 to support 12 
additional grants. The 2011 request for the Teacher and Leader Pathways 
program would provide $405 million to significantly expand the amount 
of funding available to States and districts to enable them to partner 
with college-based teacher preparation programs and other organizations 
to compete for funding to develop or expand efforts to recruit, train, 
and support teachers to teach in high-need schools or high-need 
subjects.
               strengthening teacher preparation programs
    Question. Doesn't the need for reform bolster the case instead for 
dedicated resources to strengthen these programs, from which 85-90 
percent of teachers enter the field?
    Answer. In speeches at the Curry School of Education at the 
University of Virginia and Teachers College at Columbia University, I 
have stressed the important role that colleges of education play in 
preparing the vast majority of individuals who become teachers and 
challenged them to reform their programs to make them accountable for 
producing teachers across subject areas who are prepared to help all 
students, regardless of race, national origin, disability, or ZIP code 
to reach their full potential. As teachers in the baby boom generation 
begin to retire, districts will need even more highly effective 
teachers from both traditional colleges of education and alternative 
routes to teaching. Any qualified organization or institution that is 
willing to partner with States and districts and be held accountable 
for preparing teachers who are able to increase student achievement and 
close achievement gaps should be able to compete for scarce Federal 
resources. Our proposed Teacher and Leader Pathways program is flexible 
about the path through which teachers are prepared but firm about the 
results which grantees will be held accountable for producing.
                  teacher and leader pathways program
    Question. Why propose to eliminate a program before its 
effectiveness has even been tested?
    Answer. The administration's 2011 request for the Teacher and 
Leader Pathways program included $57 million to continue support for 
the 28 grants that were awarded in 2009. As I mentioned in response to 
an earlier question, the administration's budget request would not 
eliminate funding for partnerships between institutions of higher 
education and districts to improve the quality of teacher preparation 
programs. Instead, it would consolidate these and other program 
authorities to create a larger pool of funds for which States and 
districts could compete for resources to support a broad range of 
activities and approaches tailored to the needs of their communities.
            evaluation of teacher quality partnership grants
    The Department is committed to investing in rigorous research and 
evaluation on the effectiveness of various approaches to improving 
teacher quality. In 2010, the Institute of Education Sciences awarded a 
contract for an evaluation of the effectiveness of the teacher 
residency projects supported through the Teacher Quality Partnership 
Grant program, including 12 grants awarded in 2009 and 7 grants awarded 
in 2010 with funds appropriated under the ARRA. The results of this 
evaluation will help States and districts make informed decisions, 
while also providing valuable information to institutions of higher 
education and other teacher residency programs to help them refine and 
enhance their programs.
                          teacher preparation
    Question. Do you agree that teacher preparation programs should 
have rigorous clinical experiences, comprehensive induction and 
mentoring, and be closely partnered and aligned with local school 
districts?
    Answer. Recent research suggests that pathways into teaching are 
more effective when they focus on the classroom and provide 
opportunities for teachers to study what they will be doing as first-
year teachers. For example, teachers who came from programs in which 
they engaged in actual teaching practices, or engaged in a ``capstone 
project''--often resulting in a portfolio of work produced in K-12 
classrooms during the pre-service education component--were more likely 
to produce positive student achievement gains during their first year 
of teaching than were teachers who did not engage in these learning 
experiences. Under the administration's reauthorization proposal, 
individuals participating in the proposed Teacher Pathway program would 
receive intensive clinical experience and induction support, including 
high-quality mentoring. In addition, the Teacher Pathways program would 
support teacher preparation activities that are aligned with the needs 
of local communities.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
                        school turnaround grants
    Question. The Department's fiscal year 2011 budget request proposes 
$900 million for a reauthorized School Turnaround Grants program 
intended to help States and local education agencies ``turn around'' 
the country's 5,000 lowest performing schools over the next 5 years. 
The Department's Blueprint for Elementary and Secondary Education Act 
reauthorization outlines four models including a school closure model, 
a restart model, a turnaround model, and a ``transformation model'' in 
which the principal is replaced, staff are strengthened, and extended 
learning time is provided, among other reforms. For rural areas, these 
models pose a challenge. I'm concerned that some of the proposed 
reforms may not be optimal for Arkansas--especially with respect to 
laying off one-half of the school staff or shutting down the school and 
reopening it.
    Mr. Secretary, how will you ensure rural districts have flexibility 
in school improvement through the proposed four models under the school 
turnaround grants program you have proposed?
    Answer. We recognize that rural school districts face unique 
challenges and require flexibility to develop and implement effective 
plans for turning around their persistently lowest-achieving schools. 
In particular, some rural schools may have difficulty providing access 
to a well-rounded education, recruiting and retaining effective 
teachers, and serving high concentrations of poor students. At the same 
time, we know that all children can learn with the appropriate support, 
and the School Turnaround Grant program was designed to help all 
districts and schools, including those in rural areas, provide that 
support. The transformation model, in particular, was developed with 
input from stakeholders from rural communities, to make sure that these 
communities have the ability to turn around their struggling schools. 
This model gives rural districts an option that can work for them and 
that can deliver dramatic change students need.
                         program consolidations
    Question. In the Department's budget proposal, many K-12 programs 
are consolidated into fewer, broader programs aimed at meeting targeted 
goals. Arkansans have benefited from several worthy programs, such as 
Teach for America, Javits, and Literacy Through School Libraries, that 
have been consolidated.
    How will these larger programs meet the needs many of the smaller 
programs targeted?
    Answer. In most cases, the larger, consolidated programs we are 
proposing through reauthorization are flexible enough to continue 
supporting high-quality projects that carry out activities in the 
specific areas you mention. Our goal in consolidating multiple current 
authorities is not to eliminate support for worthy reforms and 
activities, but to focus effort in a few critical areas, build an 
evidence base of what works through rigorous program evaluations, and 
help us lead the field by directing funding and attention to scaling up 
the best ideas.
    Question. How do you envision funding should be structured to meet 
the overall goals of these consolidated programs?
    Answer. The President's budget includes a proposed structure for 
funding activities within broader, more comprehensive authorities 
contained in our reauthorization plan. We believe these broader 
authorities will provide States and districts the flexibility to focus 
on their specific needs, enable the Department to build an evidence 
base of what works through rigorous program evaluations, and help us 
lead the field by directing funding and attention to scaling up the 
best ideas.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
       program consolidation proposal and prospective applicants
    Question. The Department of Education's fiscal year 2011 budget 
proposes authorizing legislation which would consolidate a number of 
existing programs, including the National Writing Project, into 11 new 
programs. Under your consolidation proposal, could you identify the 
types of organizations that you anticipate will compete for grants, 
including organizations that receive grants under the existing 
programs?
    Answer. The eligible entities will vary by program and it is 
difficult to speculate which organizations might choose to apply for 
competitions that have not yet been announced. An organization such as 
the National Writing Project would be encouraged to partner with States 
or districts in order to further the implementation of comprehensive 
literacy plans under the Effective Teaching and Learning: Literacy 
program.
                        national writing project
    Question. As the Department of Education's budget appears to direct 
funding to States and localities, how would national nonprofit 
organizations, such as the National Writing Project, be able to compete 
for funding?
    Answer. Eligible entities vary by program. National nonprofit 
organizations would still be eligible for funding in programs such as 
Investing in Innovation and national activities competitions within 
Effective Teaching and Learning for a Complete Education. The National 
Writing Project could participate in these competitions or partner with 
States and districts in order to further the implementation of 
comprehensive literacy plans.
                          geographic education
    Question. As geographic literacy will be critical for our Nation's 
students to compete in a global economy, does the Department of 
Education's fiscal year 2011 budget proposal to create a new Effective 
Teaching and Learning for a Well-Rounded Education program do enough to 
ensure that funding is committed to geographic education activities?
    Answer. The administration agrees that geography is an important 
subject that our students should study as part of a complete education. 
Our proposal for Effective Teaching and Learning for a Well-Rounded 
Education would provide support for geography, as well as other 
subjects, through the identification, development, implementation, and 
replication of evidence-based programs, strategies, and practices. 
Under the current ESEA, geography is listed as one of the core academic 
subjects but ESEA funding has not been used to strengthen geography 
education unless States or districts have elected to use some of their 
formula funds for that purpose. By making geography one of the subjects 
that could be supported directly with grants from the Effective 
Teaching for a Well-Rounded Education program, we believe that our 
proposal would make geography a more prominent focus in the 
reauthorized law and make it more likely that projects supporting 
geography education will be funded.
    Question. What assurances can the Department of Education make to 
ensure that under this new program funding would be directed to 
geographic literacy activities?
    Answer. Under our reauthorization proposal, the Department could 
designate specific subjects to be supported in a particular year, or 
could hold a broad competition through which eligible entities could 
apply to carry out projects in any of the subjects covered by the 
program (the arts, foreign languages, civics and government, geography, 
environmental education, and economics and financial literacy). The 
Department could also support interdisciplinary projects cutting across 
a number of those projects. The amount of funding used to support 
geography would depend on the amount of the annual appropriation, the 
requirements and priorities announced by the Department, and the 
quality of applications received.
                     career and technical education
    Question. The Carl D. Perkins Career and Technical Education Act is 
the primary program in the Department of Education that supports 
preparing students for their future careers, a key element of the new 
focus on college and career readiness. What role do you see career and 
technical education playing in helping students become career and 
college ready?
    Answer. Career and Technical Education (CTE) programs represent one 
of the many pathways available to students to help them become college 
and career ready. These programs provide instruction that integrates 
both academic rigor and career and technical skills. In addition, the 
statutory requirement that States offer ``programs of study'' should 
enhance the capacity of CTE programs to prepare students for career and 
college. Programs of study are coherent sequences of nonduplicative CTE 
courses that progress from the secondary to the postsecondary level, 
include rigorous and challenging academic content along with career and 
technical content, and lead to an industry-recognized credential or 
certificate at the postsecondary level or to an associate or 
baccalaureate degree. They may also incorporate a dual-enrollment 
component, where a student takes postsecondary coursework while still 
in high school and accrues postsecondary credits while doing so. High 
school students who have completed programs of study are not only 
likely to graduate college and career ready, but they also have already 
taken foundational courses in a specific career area and are ready for 
more advanced coursework at the postsecondary level in the same career 
area.
        reach of cte programs and steps to improve cte programs
    Question. How can programs continue to expand and improve to serve 
more students under the Department of Education's fiscal year 2011 
budget proposal?
    Answer. Career and technical education programs already serve most 
high school students in this country. According to an April 2009 
National Center for Education Statistics report, 97 percent of all 2005 
public high school graduates had earned CTE credits. In terms of 
improving programs, the requirement that States offer programs of study 
as part of their CTE programs holds great promise. State and local 
recipients of Perkins funds must create at least one program of study 
for their students. A program of study must be specific to a career 
field and integrate academic and technical content in a coherent 
manner. It must also clearly specify the progression of coursework a 
student should follow at the secondary level and the coursework a 
student would pursue at the postsecondary level to eventually attain a 
credential or degree in that career area. In addition, the courses must 
not be duplicative. Thus, this approach should not only ensure that CTE 
students are attaining both academic and technical content, but that 
they do not need to repeat coursework during their postsecondary 
studies. In addition, it lets students know exactly what they need to 
do attain a credential, certificate, or degree in a specific area. The 
Department has provided guidance and technical assistance to States in 
order to help them develop rigorous high-quality programs of study.
                21st century community learning centers
    Question. How would the process of awarding grants occur under the 
Department of Education's fiscal year 2011 budget proposal to make 21st 
Century Community Learning Centers (21stCCLC) grants competitive?
    Answer. As for any other competitive grant competition, the 
Department would set evaluation criteria and prepare application 
requirements and criteria to which eligible entities would have to 
respond to be considered for a grant. Assuming that the fiscal year 
2011 appropriation for the 21st CCLC program adopts the 
administration's proposal and continues to be multiyear funds, the 21st 
CCLC grants would be competitively awarded to States during fiscal year 
2012.
    Question. How many States do you anticipate would receive 21stCCLC 
awards in fiscal year 2011?
    Answer. The Department has not established an estimated number of 
awards. We would fund as many high-quality applications as possible 
with the amount Congress appropriates for the program.
    Question. As under the current 21stCCLC formula grant structure 
where all States are guaranteed to receive a share of funding, will 
small States, such as Mississippi, be able to effectively compete 
against large States for these awards?
    Answer. Our experience indicates that small States can be as 
competitive as the larger States. For instance, most recently in the 
Race to the Top Phase 1 competition, one very small State (Delaware) 
and one medium-size State (Tennessee) were the two winners.
    Question. How would States that do not receive a competitive award 
under this restructured program make up for the loss in Federal funding 
for the 21stCCLC?
    Answer. States that do not receive 21stCCLC could consider ways 
that State funds and other Federal funding streams, such as title I or 
the Child Care Development Block Grant, can be used for activities that 
were supported by the 21st CCLC program. We would also strongly 
encourage States take steps to enable them to submit a high-quality 
application for a grant in future years.
                public television children's programming
    Question. The Department of Education's fiscal year 2011 budget 
proposes to consolidate funding for Ready To Learn (RTL), a program 
with a nearly 20-year proven record of using the power and reach of 
public television's children's programming to better prepare young 
children for success in school. This new ``Effective Teachers and 
Learning: Literacy program,'' would appear to make direct RTL funding 
unavailable to public broadcasting and would negatively impact national 
distribution. At the same time, the Department has put out a Request 
for Proposals (RFP) for the program's fiscal year 2010 funding that 
calls for ``transmedia storytelling'' projects, rather than television-
focused projects. What assurances can you give that the Department will 
continue its nearly 20-year partnership with public television?
    Answer. From the amount requested for the Effective Teaching and 
Learning for a Complete Education programs, the administration would 
reserve funds to support a range of national activities. Public 
telecommunications entities--such as the Public Broadcasting Service 
(PBS) and the Corporation for Public Broadcasting (CPB)--would be 
encouraged to compete for such national activities funding to create 
high-quality, educational content for children. It is important to 
recognize that even if neither PBS nor CPB were to submit a winning 
application in response to the 2010 competition, the Department's 
partnership with public television would still remain healthy because 
the majority of funds available to support this activity would very 
likely end up going to support applications from one or more of the 
many PBS-affiliate stations, which currently develop and produce much 
of the original children's educational programming content that is 
distributed over public television.
                             ready to learn
    Question. Will Ready to Learn have the same impact, reach and 
success if carriage on television is phased-out or minimized?
    Answer. The Department envisions that the impact, reach, and 
success of Ready to Learn could be augmented by taking steps to ensure 
that high-quality, educational programming content not only reaches and 
benefits the widest audience possible, but also to ensure that such 
materials are coordinated across a variety of media distribution 
platforms, including television. The Department does not envision that 
``carriage'' or distribution of children's educational programming 
content using television will be phased-out or minimized. Instead, in 
the Request for Proposals published in March 22, 2010, the Department 
``encourages applicants to deliver early learning content through the 
well-planned and coordinated use of multiple media platforms.'' This 
well-planned and coordinated use of platforms necessarily includes 
television--but we believe that the potential educational benefits of 
children's programming content can be greatly enhanced if television is 
not relied on as the sole distribution mechanism.
                     early learning challenge fund
    Question. The Department of Education's fiscal year 2011 budget 
proposal does not request funds for a new Early Learning Challenge Fund 
since it was assumed that funding would be enacted and funded as part 
of the budget reconciliation act. Since funding did not come to bear in 
reconciliation, what are your plans for funding the Early Learning 
Challenge Fund?
    Answer. Early learning remains a priority for the administration 
and we are considering ways that we can work with Congress to provide 
funds for the Early Learning Challenge Fund.
      incorporating early learning into federal education programs
    Question. How do you intend to incorporate early learning into 
existing program authorities?
    Answer. Early learning is a high priority for the Department. We 
are encouraging States and LEAs to use ESEA title I, part A funds to 
support high-quality early learning programs, and are continuing to 
support early learning services for students with disabilities through 
the IDEA parts B and C. We also will be working with States to 
implement the Striving Readers program; at least $32 million of the 
$250 million fiscal year 2010 appropriation for that program will be 
used to serve children from birth through age 5. In addition, $10 
million will be used to provide formula grants to States for the 
establishment or support of a State Literacy Team with expertise in 
literacy development and education for children from birth through 
grade 12.
    It is also important to note that we are incorporating early 
learning into our reauthorization proposal for the ESEA. For example, 
the proposed Academic Excellence in Core Subjects programs would 
support State and local efforts to implement high-quality instruction 
in literacy, science, technology, engineering, and mathematics, and 
other subjects that are part of a well-rounded education. The Excellent 
Instructional Teams programs would also improve early learning programs 
by allowing the use of program funds to support teachers and leaders 
who serve children before kindergarten entry.
                         educational technology
    Question. The Department of Education's fiscal year 2011 budget 
proposal would eliminate the Enhancing Education Through Technology 
Program. While the budget proposal states that technology will be 
infused throughout programs, a State grant program that specifically 
provides funds for helping schools upgrade their technology needs and 
to integrate technology into instruction would not receive funding. How 
would the Department of Education's fiscal year 2011 budget proposal 
ensure that funding is provided for these activities?
    Answer. The administration proposes to support the integrated use 
of technology through the Effective Teaching and Learning for a 
Complete Education programs. The proposed new programs will include (1) 
Effective Teaching and Learning: Literacy; (2) Effective Teaching and 
Learning: Science, Technology, Engineering, and Mathematics (STEM); and 
(3) Effective Teaching and Learning for a Well-Rounded Education. For 
these three new programs, applicants that propose to use technology to 
address student learning challenges will be given priority.
    The Department's fiscal year 2011 budget request includes $300 
million for STEM education grants to be awarded on a competitive basis. 
Grantees will be required to use its funds to carry out activities to 
improve teaching and learning in mathematics or science and may also 
carry out activities to improve teaching and learning in technology or 
engineering.
    In addition, the Department plans to emphasize using technology to 
drive improvements in educational quality through the reauthorized 
Investing in Innovation program. Under that proposal, the Secretary 
would be authorized to designate support for the effective use of 
education technology to improve teaching and learning as one of the 
priorities that applicants may address in their applications for 
competitive awards.
             replicating promising practices and strategies
    Question. The Department of Education's fiscal year 2011 budget 
proposal places a strong emphasis on identifying promising practices 
and strategies that can be replicated in classrooms, schools, and 
districts. What will the Department of Education do to capture and 
disseminate this knowledge so educators and administrators across the 
country can use promising practices to improve classroom instruction, 
school leadership, academic performance for all students, and close 
historic achievement gaps?
    Answer. The Department employs a wide range of grant and contract 
vehicles to ensure that classroom educators, school leaders, and State 
and district policymakers have the information they need to select 
promising practices and strategies that meet the needs of their 
students. Through the What Works Clearinghouse and the Education 
Resources Information Center, the Institute of Education Sciences makes 
research and evaluation studies available to both the research and 
practitioner communities in clear, concise formats that provide 
methodological and technical information on the strength of the 
evidence to support claims of effectiveness. The Department's technical 
assistance providers, including the Regional Educational Laboratories, 
the Comprehensive Centers, the Parental Information and Resource 
Centers, the Equity Assistance Centers, and Parent Information Centers, 
work with States, districts, schools, and parents to translate research 
and evaluation findings into practical strategies to improve student 
achievement. In addition, through the Technical Assistance and 
Dissemination program, the Office of Special Education Programs 
supports a network of grants providing technical assistance, 
dissemination, and model demonstration activities on a range of issues 
related to improving the education of students with disabilities. The 
Department is working to develop a comprehensive strategy that will 
leverage technical assistance and dissemination resources across 
programs and offices to coordinate the provision of services and foster 
the sharing of best practices and research information across programs 
and topic areas.

                          SUBCOMMITTEE RECESS

    Senator Harkin. Thank you very, very much. Thank you all.
    [Whereupon, at 11:17 a.m., Wednesday, April 14, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
